<html>
<title> - DEMOCRACY IN ALBANIA: THE PACE OF PROGRESS</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







               DEMOCRACY IN ALBANIA: THE PACE OF PROGRESS

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2013

                       Printed for the use of the
            Commission on Security and Cooperation in Europe


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                   Available via http://www.csce.gov
                   
                   
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-505                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                 
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           CHRISTOPHER SMITH, New Jersey,
  Chairman                             Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,   
JOHN BOOZMAN, Arkansas                 New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
               DEMOCRACY IN ALBANIA: THE PACE OF PROGRESS

                              ----------                              

                              MAY 6, 2013
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     2

                                 MEMBER

Hon. Eliot Engel, a Member of Congress from the State of New York     7

                               WITNESSES

Philip T. Reeker, Deputy Assistant Secretary for European and 
  Eurasian Affairs, U.S. Department of State.....................     3
Elez Biberaj, Eurasia Division Director, Voice of America........    16
Besa Shahini, Senior Analyst, European Stability Initiative......    18
Gilbert Galanxhi, Ambassador of Albania to the United States of 
  America........................................................    26

                               APPENDICES

Prepared Statement of Hon. Benjamin Cardin.......................    34
Prepared Statement of Hon. Christopher Smith.....................    36
Prepared Statement of Hon. Robert Aderholt.......................    37
Prepared Statement of Eliot Engel................................    38
Prepared Statement of Hon. Michael Turner........................    39
Prepared Statement of Philip T. Reeker...........................    40
Prepared Statement of Elez Biberaj...............................    42
Prepared Statement of Besa Shahini...............................    47
Prepared Statement of Gilbert Galanxhi...........................    50

 
               DEMOCRACY IN ALBANIA: THE PACE OF PROGRESS


                              MAY 6, 2013

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 3:03 p.m. to 4:59 p.m. EST in the 
Capitol Visitor Center, Senate Room 210-212, Washington, D.C., 
Senator Benjamin Cardin, Chairman of the Commission on Security 
and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.
    Members present: Hon. Eliot Engel, a Member of Congress 
from the State of New York.
    Witnesses present: Philip T. Reeker, Deputy Assistant 
Secretary for European and Eurasian Affairs, U.S. Department of 
State; Elez Biberaj, Eurasia Division Director, Voice of 
America; Besa Shahini, Senior Analyst, European Stability 
Initiative; and Gilbert Galanxhi, Ambassador of Albania to the 
United States of America.

                HON. BENJAMIN CARDIN, CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. Well, good afternoon. Let me welcome you all to 
the Helsinki Commission hearing that we're holding today in 
regards to ``Democracy in Albania: the Pace of Progress.'' I 
want to thank all the witnesses for being here today. I 
particularly want to acknowledge and thank the ambassador from 
Albania to the United States for his personal attention and 
presence. We very much appreciate that and we appreciate all 
the witnesses that are here.
    Shortly, I'm going to be turning the gavel over to 
Congressman Robert Aderholt. I think most of you know that 
Congressman Aderholt is not only a member of the Commission--a 
very active member of the Commission--but is a Vice President 
of the OSCE Parliamentary Assembly, a very active Member of 
Congress internationally and U.S. participant within the 
Helsinki process.
    It is also interesting to point out that this is our second 
hearing in which we have focused on a close friend of the 
United States, a member of the OSCE, and a NATO ally. We had 
our last hearing on Hungary, and this hearing we are having on 
Albania. And it is, I think, a testimony to the fact that 
countries that, with our allies and our friends, we can have a 
very open and frank discussion about the progress being made in 
elections, in building democratic institutions, in dealing with 
the commitments of the OSCE.
    Albania had a very difficult past, as we know, a very 
oppressive regime under former communist domination. And its 
people look forward to the type of democratic institutions that 
the fall of the Iron Curtain brought. And the pace in Albania 
for change was very rapid in the beginning, which is a 
testimony to the leadership of their country. We saw 
significant changes take place.
    But in recent years, the progress has certainly been at a 
different pace. And in some instances we believe that 
opportunities for progress have been lost. We're particularly 
concerned about free and fair elections. We're concerned about 
the openness of its society to dissent. And we look forward to 
that discussion today as to how we, as friends and allies, can 
work together to live up to the commitments of the OSCE.
    This Commission is pretty bold in its putting a spotlight 
on countries that we think can do better. We'll do that with 
the United States of America, when we think that it is not 
performing as it should under the OSCE principles. Having said 
that, I want to draw a sharp contrast between the countries 
that we've concentrated, our allies, and the progress they need 
to continue to make, and those countries that have yet to make 
the type of progress in living up to the OSCE commitments that 
we are going to continue to call out for not having taken any 
significant steps.
    That's certainly not the case with the United States, as I 
was a little bit critical, or with Albania or with Hungary. But 
we do hope to be able to have the type of discussion where we 
can bring out our concerns and look for positive ways to 
advance the basic principles within OSCE in a fair manner. I 
believe the people of Albania deserve nothing less. They 
deserve free and fair elections, they deserve the promises of 
democracy in the full sense of those commitments.
    I will ask consent that my entire statement be made part of 
the record. And as I indicated earlier, I'm going to turn the 
gavel over to the Congressman Aderholt who will introduce--make 
his opening statements and introduce the witnesses. And I 
apologize; I will be in and out during the course of today's 
hearings. But again, I thank the witnesses for their presence 
here today.

              HON. ROBERT ADERHOLT, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you, Senator Cardin. And it's good to 
be here today for this hearing and I welcome the opportunity 
for us to focus on Albania, and especially as they get ready to 
hold their parliamentary elections.
    I've had the opportunity to visit the Balkan region many 
times. In particular I've had an opportunity to visit Albania. 
The country has tremendous potential. The progress they have 
made as they led up to their NATO membership is an indication 
of that potential. And as Senator Cardin mentioned, even the 
progress they made right after the country became independent 
is very impressive as well.
    At various levels, both in the government and in the 
opposition, there are talented minds in Albania who do want the 
country to continue to move forward as it has in the past. They 
often share our frustration there is not greater progress 
today, particularly as it relates to EU membership. They want 
to see Albania stable, integrated and prosperous.
    I also want to mention that, as the Chairman mentioned, I 
serve as Vice President of the OSCE Parliamentary Assembly, so 
I work very closely with a lot of the other parliamentarians 
that focus on this region of the world, one being a colleague 
to both Senator Cardin and myself, also a friend, Mr. Roberto 
Battelli from Slovenia. He will lead the OSCE election 
observation efforts in Albania in June.
    The OSCE--both the Assembly and Office of the Democratic 
Institution in Human Rights--will take this election very 
seriously. And I hope they can say when the process is over 
that the elections were conducted in a free and a very fair 
manner. Our job today is to encourage that outcome, and I look 
forward to the testimony of all the witnesses that we will have 
today.
    On the first panel is Phil Reeker. He has a distinguished 
career as a Foreign Service Officer and is the current Deputy 
Assistant Secretary of State with a portfolio for the Western 
Balkans. We welcome you here today; we thank you for your time 
to come before the Commission, and we will express our 
appreciations for the State Department's collaboration with the 
Commission in focusing on some of our friends and allies in 
Europe.
    It is admittedly easier for parliamentarians to call for 
enlightened and public foreign policy than it is for diplomats 
who must develop and implement such a policy with the 
additional work and challenge it entails. I hope, Ambassador 
Reeker, that as we focus on Albania today, we'll be able to 
rely on your broader experience as you have served in the 
region. And what we'll do is go ahead and get started, and then 
as the other Members come by, we will introduce them at that 
time.
    Ambassador Reeker.

       PHILIP T. REEKER, DEPUTY ASSISTANT SECRETARY FOR 
    EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Reeker. Well, thank you very much, Congressman. It's a 
pleasure to be here. Senator Cardin, Mr. Chairman, I think the 
last time I was able to sit in this forum with you was for my 
confirmation hearing as U.S. Ambassador to the Republic of 
Macedonia. That seemed to be a successful endeavor, and I was 
delighted that we were able to host Congressman Aderholt in 
Macedonia during my time there.
    I just want to quickly introduce my colleague, who is in 
charge of the Albania desk at the State Department, Mr. Chris 
Carver, also a career Foreign Service Officer from the fine 
state of Oregon.
    Mr. Cardin. Welcome. Glad to have you here.
    Mr. Reeker. Thank you very much for the invitation to speak 
before the Helsinki Commission. We in the State Department have 
an extremely good rapport with the Commission. We value the 
work that you do, and I must say personally, from my experience 
and work in the Balkans--particularly over the past year and a 
half in this position, I think the Commission has played a 
significant role in fostering stability and democracy 
throughout the region for more than two decades now, and I 
appreciate very much your continued interest in the region. 
With all the other things that are going on in the world, it's 
important that we remember this is an area where the United 
States has contributed significant resources and continues to 
be extremely engaged. So I welcome the opportunity to discuss 
the pace of democratic progress in Albania.
    I want to begin the testimony today with an overview of our 
policy toward Albania, review the pace of Albania's democratic 
progress, and finally, identify some of the challenges that we 
believe still remain.
    The United States and Albania share a strong, vibrant and 
enduring relationship--a friendship, as you've described it. 
The United States has long supported Albania's independence and 
its democracy. I am recalling that Albania first became 
independent from the then Ottoman Empire on November 28, 1912.
    After the First World War, our president, President Woodrow 
Wilson, defended Albania's statehood. And during the dark days 
after the Second World War of the communist era, the Voice of 
America, whose Albanian service celebrates its 70th anniversary 
at an event tomorrow, brought news and inspiration to a very, 
very isolated nation.
    After the fall of the harsh communist regime in 1991, the 
United States, under President George H.W. Bush, quickly re-
established relations with Albania. We took back the embassy 
building that we had had there prior to the war. Later, 
President Clinton established an enterprise fund to bring U.S. 
investment to Albania, supported Albania's democratic elections 
and worked with Albania and our NATO allies to protect Kosovo 
and to restore stability to the region. We do remember how 
Albania took in tens of thousands--hundreds of thousands of 
refugees from Kosovo and during those dark days in 1998, '99.
    President George W. Bush became the first sitting American 
president to visit Albania, and President Obama welcomed 
Albania, along with Croatia, as our newest NATO allies in 2009. 
And Secretary Clinton helped Albania celebrate the 100th 
anniversary of independence just last fall in November 2012 
when she visited Albania as part of a Balkans tour.
    Internationally, I think it's important to note that from 
an era of extreme isolation, Albania has actually been a 
responsible and steadfast actor, committing troops and 
resources in Bosnia-Herzegovina, in Kosovo and in Iraq. As a 
NATO member, Albania has supported robustly NATO-led 
operations, most prominently in Afghanistan, where over 200 
Albanians serve proudly right now alongside U.S. and other 
allied troops.
    So the United States deeply values Albania's many 
contributions to our mutual goals. The United States is 
partnering with Albania and with our European friends as 
Albania works to achieve its European Union aspirations, which 
is, of course, one of our core policy goals in the Western 
Balkans and toward Albania specifically. Like the bipartisan 
nature of this commission, this policy has been a clear policy 
of both Democratic and Republican administrations for over 20 
years. Now, since 1991, Albania has made significant progress 
in its democratic development, and the United States has 
partnered with and supported Albania's efforts to shore up its 
democratic institutions, improve rule of law and increase 
living standards for all the people of Albania and to maintain 
friendly and mutually productive relations with its neighbors.
    The United States has also supported efforts to develop 
trade and investment opportunities in Albania. As you 
mentioned, Congressman, there are great opportunities, we 
believe, there. And we've cooperated on regional law 
enforcement, regional economic and regional environmental 
issues.
    Albania's membership in NATO is enormously important for 
consolidating peace and security in Albania itself and in the 
broader region. But in the 21st century and beyond, I think 
it's important to remember that economic statecraft is of 
increasing importance. The prospect of integration with the 
European Union provides Albania with strong incentives for 
continued democratic, economic and social reform, and it 
represents the best prospect for Albania's long-term economic 
and democratic stability. Albania, like other countries 
aspiring to join the EU, knows that EU integration is its best 
chance to secure prosperity for its people. Croatia, as an 
example, a strong supporter and friend of Albania as well, will 
be the next country from the region to join the European Union 
on July 1st this year.
    Now, as Albania looks to its European future, we and our 
European partners are hopeful that Albania will take the 
necessary steps to solidify its democratic credentials and give 
it the best opportunity to gain EU candidate status as soon as 
possible. Then-Secretary Clinton reiterated this in her 
historic address to the Albanian parliament last fall in 
Tirana. Secretary Clinton said, and I quote, ``Albania and the 
Albanian people deserve a place in the European family of 
nations. That is not only good for you, it will make this 
continent more peaceful and secure.''
    Today, Albania's political leaders from all political 
parties--and there are many of them--and indeed all of 
Albania's people have some hard decisions to make about their 
future. Despite some progress on the EU reform agenda, the 
European Commission did not recommend candidate status in 2012. 
The European Commission's progress noted that while Albania had 
made great strides towards fulfilling the so-called Copenhagen 
political criteria for membership, Albania needed further to 
intensify efforts to reform the judiciary, to strengthen the 
independence of judicial institutions, efficiency and 
accountability. The commission also noted that Albania needed 
to demonstrate a track record of reforms in the fight against 
organized crime and corruption and in its protection of the 
rights of minority communities.
    Further, the European Commission report highlighted the 
need for Albania's parliamentarians to pass remaining reform 
legislation in the areas of public administration, judicial 
reform and parliamentary rules and procedures. Finally, as you 
noted, Congressman, elections remain an area of concern in 
Albania's democratic progress. The European Commission report 
stated that the successful conduct of parliamentary elections 
in 2013 to be held on June 23rd will be a crucial test of the 
country's democratic institutions and Albania's readiness for 
EU candidacy status. We, the United States, the State 
Department very much share the commission's concerns.
    The 2009 OSCE/ODIHR and Parliamentary Assembly election 
observation mission noted that while the election then met most 
OSCE commitments, it did not attain the highest standards for 
democratic elections. This has been a challenge for Albania. 
The mission then cited procedural violations, administrative 
problems with the vote count, biased media coverage and a 
highly toxic political environment. The conduct of the May 2011 
nationwide elections for mayors and city councils fared mildly 
better according to OSCE/ODIHR's observation mission final 
report, but the highly polarized political environment was 
cited as problematic, as was the Central Election Commission's 
(CEC) decision to intervene in Tirana's mayoral contest.
    This decision undermined the independence of the 
institution, the CEC, and undermined confidence in the election 
results. This is behind us, but we must keep it in mind as we 
look toward the upcoming parliamentary elections. What are the 
lessons learned? The United States has been clear that to meet 
international standards, the independence of Albania's 
institutions must be respected. The political discourse must 
remain constructive and civil, and the Albanian people must 
have confidence in both the process and the results of the 
elections. American personnel will join our colleagues from 
OSCE's ODHIR and work with their Parliamentary Assembly 
counterparts to ensure that the international community watches 
the conduct of the elections very carefully. We understand that 
the OSCE Parliamentary Assembly will deploy its own mission, 
and we welcome that.
    The United States has worked for many years to engage with 
civil society in Albania, and these efforts continue through 
the U.S. embassy's programs under current ambassador Alex 
Arvizu. Through voter outreach and education programs, we are 
encouraging open discussions on important issues that matter to 
Albanian citizens beyond mere personal politics.
    We're supporting active participation in the electoral 
process and observational reporting on the electoral process 
itself. Yet due in part to linger effects of the harsh 
communist regime, civic participation remains the weakest 
aspect in the electoral process. Parties must more seriously 
engage civil society and reflect their recommendations into 
their party platforms. In the United States, politicians pay 
attention to public opinion because citizens make their 
opinions known through their votes. And let me just take this 
moment to say hello to Congressman Engel, also a good friend of 
Albania and these issues, with whom we've spoken many times on 
these issues.
    The United States is particularly concerned with the 
independence of the Central Election Commission. The CEC has 
the primary responsibility to administer elections in a free 
and impartial fashion in accordance with Albania's electoral 
code and the rule of law. To do so, the CEC must be free from 
interference by any individual, any political party, any 
institution, including the parliament. With respect to the 
composition of the CEC, the members of the CEC who were 
selected and appointed on the basis of interparty consensus and 
in accordance with the electoral code should be apolitical.
    Once appointed, CEC members have pledged and are obligated 
to discharge impartially their duties to realize free, fair and 
democratic elections in Albania. The United States has stressed 
the need for all parties to strengthen lost trust in the main 
institution responsible for the conduct of elections in 
Albania. This includes adhering to a timeline established by 
the electoral code and conducting the elections on June 23rd--I 
believe that's just about 45 days from now.
    To do this, Albania's political party leaders must work 
together, they must compromise--a word not always found in 
dictionaries in the Balkans--and find a solution that allows 
the CEC to carry out its mandate to administer elections. We 
have confidence that the leaders can do this. Leaders of all 
major political parties have expressed their desire for 
elections to take place on June 23rd, However, the CEC does not 
currently have enough members to administer elections 
effectively. It's a question of credibility, and we would like 
to see the CEC as fully constituted as possible, and we urge 
Albania's leaders not to waste time. The United States, 
together with our European partners, have stressed that 
democracy is not just who wins and who loses a single election. 
The democratic process matters too.
    It matters how the political parties run their campaign. It 
matters how the CEC interprets Albania's electoral code, 
conducts the elections and manages disputes, how the votes are 
tabulated, how disputes are resolved and how the public and the 
political parties respond to the final tally. The conduct of 
these elections on June 23rd will be an important indicator of 
Albania's democratic maturity, and it will send a clear signal 
whether Albania is ready for European Union candidacy status. 
It will also have an impact on our bilateral relationship with 
Albania.
    In spite of our concerns, let me say in closing that the 
United States remains committed to Albania's future. We remain 
committed to our friends, the people of Albania--all the people 
of Albania, and we extend the hand of support. Beyond 
elections, we will remain engaged on the long-term goals I 
cited earlier: to help Albania build and refine democratic 
institutions, respect the rule of law, fight crime and 
corruption and develop a market economy to bring prosperity to 
the Albanian people.
    Let me close there. Thank you again for granting me this 
opportunity to speak before the Helsinki Commission. Thank you 
very much for the work that you do, and I look forward to your 
questions. Thank you.
    Mr. Aderholt. Thank you, Ambassador. At this time, as 
mentioned, we have been joined by the Ranking Member of the 
Foreign Affairs Committee, Eliot Engel, who, as you mentioned, 
has been someone who has spent a lot of time in Albania and the 
Balkans region, and we're honored that he joined us today, and 
so we wanted to recognize him for any opening remarks.

 HON. ELIOT ENGEL, A MEMBER OF CONGRESS FROM THE STATE OF NEW 
                              YORK

    Mr. Engel. Thank you very much, Congressman Aderholt, and 
thank you for your working closely with me on the Albanian 
Issue Caucus. I very much appreciate it, and I want to thank 
Ambassador Reeker, with whom I have worked with for many, many 
years. He does such an outstanding job for our country. And 
your testimony, I think, was right on the money, so to speak. I 
think you really hit the issues.
    This hearing is obviously timely, because it becomes just 
before, as you said, Ambassador, the Albanian elections. And I 
agree with you, it's crucial not in the context of which 
candidate will be elected as it is up to the Albanian people to 
decide, but crucial in terms of how the election will be 
conducted.
    And today, like you, I urge all the political parties to 
fulfill the commitments Albania has made to the OSCE of 
elections and the campaigns leading up to them. The election 
must be judged by the OSCE as free and fair, and it will not 
only validate the results to the Albanian electorate and the 
international community, but it will also mandate that all 
political parties accept the final election results and take 
their seats in parliament. It hasn't always happened, 
unfortunately.
    As the co-chairman of the Albanian Issues Caucus--and my 
co-chairman is sitting to my right--which I founded 24 years 
ago, I have been honored to be part of the effort to advance 
the democratic development of Albania and to preserve the good 
relations between Albanian Americans and their ancestral 
homelands. America has no better friends than Albanians, 
regardless of where they live in the Balkans. They have always 
stood by the United States, and we have always stood by them.
    The citizens of Albanian are proudly entering the second 
century of their independence. It began on the 28th of November 
in 1912, when they broke free from the Turkish Ottoman Empire, 
despite nearly half a century of draconian isolation after 
World War II under an authoritarian communist regime that even 
perceived the Soviet and Chinese communist models as too open. 
The people of Albania never lost their belief in the European 
identity and in America as their friend.
    I'd like to take just a minute or two to discuss Albania's 
Euro-Atlantic aspirations. In the last two decades, Albania has 
made extraordinary progress toward meeting the standards and 
norms of the value-based Euro-Atlantic community. They obtained 
full membership in the North Atlantic Treaty Organization on 
April 2, 2009--I was very, very happy about that--and Schengen 
visa liberalization on December 15th, 2010. What is left now is 
for Albania to capitalize on the promise of the European Union 
Thessaloniki Declaration of 2003, that the countries of the 
Western Balkans, including Albania, are eligible for accession 
to the EU. To do so, however, Albania must fulfill the 
requirements for membership. Croatia's July entry this year 
into the EU validates it, and if a Balkan country meets the 
requirements, the door to the European Union is open. And I 
hope that Albania would get into the European Union as soon as 
possible.
    A free and fair Albanian election in June will go a long 
way towards propelling Brussels to extend to Albania in 2013 EU 
candidate status--the EU's waiting room for membership. This 
dramatic step would signal to Albanians that their living 
within the borders of the European Union by 2020 is a realistic 
aspiration and the opportunity cannot to be missed. Last 
month's agreement between Kosovo and Serbia demonstrated the 
role of political courage on the part of elected officials in 
ensuring a better life and future for their people. It is only 
because of Prime Minister Thaci's willingness to make hard 
decisions and Prime Minister Dacic's willingness to embrace a 
forward-leaning vision, the prospects for peace, security and 
prosperity within the borders of the EU is something that the 
citizens of these two countries can hopefully now count on.
    The same opportunity lies in front of the political leaders 
of Albania, be they in or out of government. Will they exercise 
the political courage to do what is right for their country's 
future and for the people theyaspire to lead the EU? 
Politicians, government officials and Central Election Commission, 
members at all levels, in Albania, are being asked on this June 
election to do no more but no less than what is expected of their 
counterparts in elections with any of the countries of the Euro-
Atlantic community. The people of Albania have the right to have a free 
and fair election as defined by Albanians and OSCE norms and thus be 
assured that it is their votes that elect their leaders.
    The people of Albania also have the right for the election 
to be conducted in a matter that affirms that Albania belongs 
in the European Union. Anything less would be a disservice to 
the remarkable accomplishments of the Albanian people into the 
potential their future should hold. And there have been 
marvelous accomplishments as a new NATO member, and Albania has 
improved its lots for its people, and it's great to see it. And 
the United States is a very, very willing partner with the 
Albanian people.
    I thank you, Mr. Chairman, for the opportunity to offer my 
thoughts on this matter, and I now look forward to continue to 
read testimony.
    And again, Ambassador Reeker, thank you for all you've done 
through the years, your hard work. You've always been fair, 
you've always worked hard and you've always been saying the 
correct things, as was demonstrated by your testimony here this 
afternoon. So I thank you very much.
    Thank you, Congressman, very much.
    Mr. Aderholt. Thank you, Congressman Engel. Let me just 
jump into some of the questions. Of course, one of the most 
obvious things that we want to really talk about today is the 
role that OSCE's presence has played in trying to resolve the 
problem associated with these electons. And, Ambassador, I 
would like to get your thoughts on what role that has been. Is 
it a useful role as these upcoming elections are in sight, and 
also the elections in the past?
    Mr. Reeker. Thank you, Congressman, Aderholt. I think it 
really is important to highlight OSCE and the role it plays 
throughout the region, but particularly as we look at Albania 
today. I would point out at the start that our ambassador and 
the succession of ambassadors before him has worked very 
closely with the OSCE head of mission on the ground in Albania. 
Mr. Wolfarth, the OSCE head of mission, will be leaving soon, 
and a new head of mission will be arriving. And I know 
Ambassador Arvizu very much looks forward to continuing that 
relationship because the OSCE mission is vital in helping move 
Albania closer to conducting the free and fair elections in 
compliance with its OSCE commitments. These are commitments 
that are made through membership in OSCE, and these are 
international standards. We appreciate very much the lead that 
OSCE is taking and coordinating the efforts on the ground to 
support the elections. Looking back, as I mentioned in my 
testimony after Albania's 2009 parliamentary election and the 
2011 local elections, OSCE/ODIHR--that's the Office for 
Democratic Institutions and Human Rights--provided a series of 
recommendations to improve Albania's electoral institutions. 
Many of them are reflected in the new electoral code. Over the 
last year, OSCE has worked to improve the capacity of the 
Albanian government to conduct the elections, and the 
management training that they provided to the Central Election 
Commission and the members of that commission--including voter 
education, capacity building programs, the work with civil 
society organizations, public information sessions on Albania's 
electoral code--these all work toward that goal.
    And we have to remember the context that we've discussed 
here today. This is a country that just two generations ago was 
emerging from extraordinary isolation in the concepts of 
democracy and participation by citizens. Rule of law, free and 
fair elections were something they were not used to. OSCE has 
played a vital role in that. And so we will continue, the 
United States, through our embassy and our programs based and 
sourced out of Washington, to work with the OSCE mission, with 
the European Union mission in Tirana. And I would note that all 
three of those missions, acting together, have made the same 
call--the same call I mentioned, that you have mentioned for 
Albania's political parties to engage in constructive dialogue 
and follow the guidelines of Albania's current legal 
environment. The citizens of Albania deserve no less. And I'd 
just point out that the United States will deploy a full 
contribution, as permitted under the usual OSCE/ODIHR rules for 
international election observation missions. We welcome the 
parliamentary assembly's participation, and this is part of the 
major U.S. commitment to an overall international assistance 
effort, which is we are doing everything we can to help Albania 
and its institutions in this regard.
    Mr. Aderholt. You mentioned in your opening comments this 
Central Election Commission. That's a little bit foreign for us 
here in the United States because we don't have a system quite 
like that set up. Since that is sort of a foreign concept for 
us, could you just walk us through how that commission is set 
up?
    Mr. Reeker. Well, the Central Election Commission in 
Albania, which is created under its electoral codes and laws, 
should consist of seven members. And it plays an important role 
as an institution in terms of being apolitical, free from 
interference from any political party or individual or an 
institution, and that includes the courts. It's an independent 
institution charged with conducting the elections. And I think 
we have to remember that Albania's institutions are young, they 
are ones that have not been always fully tested, and as we 
recounted in comments earlier, have not always been able to 
conduct elections that meet the expectations not only of the 
citizens but the commitments that Albania has taken 
internationally.
    We, the United States, and our international partners, and 
I would say the people of Albania, are counting on all the 
parties to deliver nothing less than elections that are free 
and fair, and that are viewed as such by not only the parties 
but by the people themselves. And what I've often said when I 
visited Albania and talked about the importance of elections is 
that they need to have elections that are reflective of a NATO 
member state. There are standards that we have for members in 
NATO. Those were standards that were judged to have been met 
when countries were invited to join the alliance, and we 
believe that the capacity is there for institutions like the 
Central Election Commission to fulfill its role and help in the 
conduct of elections. The CEC oversees a set of electoral 
zones, 89 electoral centers. Each of those centers has 
observers that watch the conduct of the election and the 
counting of ballots in those locations. There are, as I said, 
89 of those. And we want to have confidence in a process. 
Again, it's not the results that are ultimately important. 
There will be winners in these elections, but the real winners 
will be the people of Albania, if they are confident in the 
outcome of the elections and if the perception from the 
international community, as well as the citizens of Albania, is 
that these elections have been carried out well.
    Mr. Aderholt. Let me just jump in here. One thing, in your 
opening comments you mentioned about the CEC, Central Election 
Commission, and you of course mentioned there were seven 
members of it. And how are those members selected?
    Mr. Reeker. They are selected by the majority and the 
minority opposition parties, but as nonpolitical actors. I 
think it's important to remember that these seven should be 
selected and then should not be under any pressure or 
obligation to any political party or individual--or any 
individual candidate. Right now, as you may know, the CEC has 
only four sitting members. This is of concern to us. To be 
credible and to be effective, we believe that the CEC should be 
filled out. All its members should be present. That's what 
citizens will expect.
    Mr. Aderholt. And walk us a little bit through why the 
vacancies are occurring right now.
    Mr. Reeker. You had resignations after one member was 
replaced. And these are processes in which the politicians, the 
political actors, have an obligation now to select new members 
to fill out those seats, and they have not taken that action 
yet. And we look to the politicians to fulfill their 
obligations, to do what they're elected to do and to put 
forward names to fill these seats on the Central Election 
Commission.
    Mr. Aderholt. So based on the way the elections are set up 
in this country, it's important that this seven-member CEC 
board is fully functioning and operating. And right now, you're 
saying there are only four members of that commission. And it's 
up to the parliament to replace those other members that are 
vacant. Is that correct?
    Mr. Reeker. The majority or governing party's coalition and 
the opposition should put forward names for those seats. 
Technically, under law, the CEC can operate with four members, 
but it's only four out of seven. And there are certain 
decisions they cannot take just with four members. So to be 
effective, to have full credibility, we need to see those seats 
filled.
    Mr. Aderholt. When do you expect those to be filled?
    Mr. Reeker. I'd say yesterday, but that's a question for 
Albania's officials. It's something we have urged, the others 
in the international community have urged this, and we continue 
to call upon the authorities, the politicians, the parties to 
put forward names. They need to sit down together. We believe 
they have the capacity to do this and an obligation to do this 
and to fill those empty seats.
    Mr. Aderholt. You said there was four vacants. Is that 
correct?
    Mr. Reeker. There are three vacancies.
    Mr. Aderholt. Three vacancies. Out of the three vacancies, 
are they split between the parties?
    Mr. Reeker. The three opposition seats need to be filled. 
The four of the seats that are currently filled are those that 
are selected by the governing coalition. The three opposition 
seats need to be filled, and we would call upon them to do 
that.
    Mr. Aderholt. Have they indicated why they're not filling 
those seats?
    Mr. Reeker. I think it's politics, and it's time to move 
beyond that and fulfill the obligations, to sit down, to make 
the compromises necessary, to find names that are acceptable, 
that can fulfill the nonpartisan role in this very important 
institution with just 45 days before the elections are held.
    Mr. Aderholt. OK. Let me turn it over to Congressman Engel.
    Mr. Engel. Thank you. Thank you very much. Ambassador, 
knowing the past results of elections and not wanting to take 
sides in any of the elections, it would seem to me that in 
order for Albania to move in a positive direction to become a 
member of the EU, it's obviously unhelpful if there's this kind 
of turmoil and helpful if both sides respect the results of the 
elections. So I'm just wondering what you see, what you 
believe. Do you believe that absent any major problems with the 
conduct of the elections, Albania's political leaders will 
respect the results win or lose? Do you believe that they would 
learn the lesson and would avoid being provoked in a way that 
could lead to street protests and possible violent 
confrontations as we had? And what do you think they could 
reasonably do in the days after the election if a new 
parliament and government off to the best possible start?
    Mr. Reeker. Well, I welcome that question. Thank you, 
Congressman Engle, because I think it's important to step back 
and reflect. As I said, we can look at the past. Albania does 
not have a highly positive track record in terms of many of its 
elections. What can be learned from those elections, 
international observers and organizations like the OSCE have 
offered recommendations, and the OSCE and the Parliamentarian 
Assembly and others in the international community, including 
the United States, will be there to help. We have--as a friend 
and supporter of Albania--we have invested about a million 
dollars to support the election process through outreach, 
education programs, technical assistance to the CEC and through 
our own election-monitoring efforts. I think it's incumbent 
upon leaders to show courage. You talked about courage that's 
been shown recently by other leaders in the region, that they 
take the necessary steps to make sure these elections are 
conducted according to law in a manner that, as I said before, 
is befitting a country that is a member of NATO. We are very 
proud to have Albania as a member of NATO and that they made 
the significant steps and progress necessary to become that. 
But they need to demonstrate to their own people, as well as to 
their allies and to the world, that they indeed can live up to 
those expectations and commitments. So it will be incumbent 
upon leaders to not only conduct the elections right, but to 
respect the outcome. And all party leaders should then call 
upon their supporters to respect that outcome. It's not--again, 
as we've said a couple of times, it's not who wins. The United 
States has no favorites in this. Our favorite in the process is 
the country, its institutions and its people, and we want to 
see that be successful.
    And I think it's important to say in this setting that make 
no mistake, the United States, as well as the people of 
Albania, will be very disappointed if there is election 
manipulation or outside pressure on institutions like the CEC. 
If this happens, we will not stand by in silence.
    Mr. Engel. Let me say this. I was in Albania several years 
ago when they conducted one of the elections. I think it was 
actually on July 4th of that year. And I remember witnessing it 
firsthand and really being amazed at how many people were going 
to the polls, who were demonstrating their right to participate 
in democracy and vote. It reminded me a lot about our own 
country. And I have always regarded Albanians as the most pro-
American people, probably in the world. You know, when there 
are demonstrations or when Kosovo became independent, there 
were more American flags, I think, than any other flag being 
flown. And so when you consider where the people of Albania 
were and where they've gone to, it's just a remarkable success 
story. Even though there were a few bumps along the way, we 
have to, I think, put things in perspective: When I was growing 
up, this was the most isolated country in Europe, and now, it's 
as pro-U.S. and pro-democracy as any other country in Europe.
    I want to ask you about the CEC--thinking back to what Mr. 
Aderholt had mentioned: If the three vacancies are all 
opposition appointees--I don't understand, wouldn't it benefit 
each faction to appoint a full contingent to the CEC? Wouldn't 
you want to have more people on the CEC to think that you would 
get a fair shake? So why does that motivate you for not doing 
it?
    And do you think that this is something that will be 
prolonged, I mean, if they appointed their three people next 
week, I guess it wouldn't matter. If it goes to June 23rd, I 
think it would cast great doubt on the election.
    Mr. Reeker. Well, I think, Congressman, the best message 
that I can deliver is that we can't tell them how to solve 
their current problem in the CEC or how to live their lives, 
conduct a democracy. What we can point them to is the 
institutions that they have that offer the opportunity and 
expectations, the commitments that they have made. And I think 
the best message is for the parties to get together, for them 
to look for compromise and find a solution that allows the CEC 
to carry out its mandate and to do that in a credible and 
effective manner.
    And I am confident, because like you, Congressman, I spent 
time with politicians in Albania; I consider them across the 
political spectrum to be friends, just as we are friends with 
the people of Albania. And I am confident that they have the 
capability to set aside their calculations and sit down and do 
what's best for the institution, for the CEC in this case, and 
try to find a compromise, again, that allows the CEC to carry 
out its mandate effectively and credibly. And I'm quite 
confident they can do that.
    We can't tell them prescriptively, this is what you have to 
do, but we know and I think the people of Albania know that 
responsible political leaders will do that, will sit down and 
find a solution and do it soon, now, so that they can have the 
confidence that in the run-up to these elections, June 23rd, 
that they will be free, fair elections that can demonstrate the 
will of the people.
    Mr. Engel. What impact would the successful conduct of an 
election in Albania have on the region, on the rest of the 
Balkans, neighboring countries, such as Macedonia and 
Montenegro. Is there any direct relationships between 
developments in Albania and some developments in neighboring 
countries?
    Mr. Reeker. Well, thank you for asking that question, 
because as someone that works on the whole region--and you know 
this very well, Congressman--Balkan politicians are always very 
mindful of the situation in neighboring countries. And they do 
draw comparisons. And so I think no national election can be 
viewed in isolation. And that goes for the upcoming elections 
in Albania. I think we've witnessed recently several examples 
in the region of countries solving seemingly intractable 
problems or moving forward on their democratic paths and their 
path of Euro-Atlantic integration--like Slovenia finding a way 
forward in its longstanding dispute with Croatia, to ratify 
Croatia's accession treaty; the Serbia-Kosovo agreement through 
the EU-facilitated dialogue that you mentioned earlier--these 
have an impact. And they are looked at throughout the region.
    Now, if you think about the past year, Montenegro, Serbia, 
Macedonia, have all held elections that were considered 
generally to be free and fair and met most of the OSCE/ODIHR 
standards. And so we hope that Albanians will do their best to 
replicate this success.
    And a successful election would indeed serve to reinforce 
Albania's democratic progress and could serve as yet another 
example to the region. Often, Albania has been a very good 
model for the region in terms of working well with its 
neighbors and could serve again as a--as an example of 
democratic progress. We would like to see Albania play a 
critical leadership role in the region, as they have, 
particularly in engagements with other ethnic Albanian 
populations in Macedonia, in Montenegro and southern Serbia and 
indeed, further afield, in Italy and in Greece.
    So this is an opportunity and a time for Albania to lead by 
example. And good conduct of elections would be an example of 
that. And I know that it would not go unnoticed in Brussels and 
in the capitals of European Union member states. My colleagues 
in the European Union institutions and the European Commission 
have worked extremely hard to try to help Albania along that 
path towards EU candidacy.
    Mr. Engel. Well, Ambassador, thank you again. I want to 
thank you for your good work all through the years and for your 
clear, intelligent testimony this afternoon. As a member of 
Congress who has been most involved in Albania, through the 
years I have believed in the Albanian people and I have 
confidence that this election will go smoothly and that Albania 
will continue on the path that it has continued since it 
overthrew the shackles of communism and moved forward and not 
only be a NATO member but an EU member as well.
    So, again, thank you and look forward to continuing to work 
with you.
    Mr. Reeker. Thank you very much, Congressman. And I should 
just note that the example we set by working between the 
executive branch and the legislative branch in unison on issues 
like our support for Albania--our insistence and encouragement 
that Albania and its leaders live up to their potential, meet 
the commitments they've made--is itself a model and helps us 
with this joint effort.
    Thank you for all you do for Albania and for the region.
    Mr. Engel. Thank you.
    Mr. Aderholt. Ambassador, let me just ask before we go to 
the next panel, the investigation of the ``Yellow House'' case 
and the alleged organ trafficking, how far advanced is the 
investigation, and have the Albanian authorities been 
cooperative in the investigation as it's gone forward?
    Mr. Reeker. Thank you, Congressman. Let me say at the 
outset that the United States takes all allegations of war 
crimes and other serious crimes extremely seriously. We support 
the full and thorough investigation of the allegations 
contained in the 2010 report of the Council of Europe known as 
the Marty Report. And that investigation, as you indicated, is 
being carried out by the Special Investigative Task Force of 
the European Union under the EULEX, a thorough criminal 
investigation, which encompasses multiple jurisdictions. As you 
noticed--noted, this involves Albania, as well as Kosovo and 
other countries potentially in the region, examining the 
allegations which are more than a decade old. This will 
invariably be long and complex, but I think we are all pleased 
that the task force, which is led by former U.S. ambassador-at-
large for war crimes issues, Clint Williamson, one of the most 
qualified individuals in this field in the world.
    They have made good progress. They collected evidence, 
worked on enhancing cooperation with third countries, including 
Albania and conducted operational investigative activities. The 
Albanian government is cooperating with this investigation. 
It's worth noting that in May of 2012, about a year ago, the 
Albanian Parliament passed a law with near unanimous support 
that permitted the EULEX's Special Investigative Task Force to 
investigate allegations made in the Marty Report. And Prime 
Minister Berisha himself expressed publicly support for this 
endeavor.
    So like with any investigation, we don't want to prejudge 
the outcome of the ongoing investigation simply to underscore 
our support for a thorough and complete investigation for those 
who are carrying it out. And we want to commend the governments 
of Kosovo and Albania, Serbia and others in the region for 
their cooperation in this issue.
    Mr. Aderholt. Well, thank you very much, Ambassador, for 
your presence here today and your work involved in the region. 
And as my colleague Eliot Engel mentioned, we are very hopeful 
that the elections that occur in June will be free, fair and 
that it, you know, can be resolved in the CEC issue, which I 
think really is important for them to move forward and to make 
sure that not only is there an honest election, but also the 
perception that there's an honest election. So we certainly 
wish the best for Albania as they move forward over the next 
several weeks.
    So thank for being here and we look forward to working with 
you on issues of common concern.
    Mr. Reeker. Thank you, Congressman.
    Mr. Aderholt. Our second panel consists of two experts on 
the current situation in Albania. Elez Biberaj is well known to 
the Helsinki Commission for his expertise regarding Albania, 
Kosovo and the Balkans. He has participated in previous 
commission hearings on Albania and served us greatly as an 
official interpreter in the early 1990s. At the time, he was 
head of the Albanian service of Voice of America and now serves 
as the Voice of America's director of Eurasia. We're grateful 
to the Voice of America for always ensuring our concerns are 
heard and for allowing here his presence here this afternoon.
    Also joining the second panel is Besa Shahini. She might 
not be as quite as well-known in Washington at the moment, but 
she is a highly respected analyst for European Stability 
Initiative from Kosovo, now serving in Albania with funding 
from the Open Society Foundation and German Marshall Fund. She 
provides not only the added benefit to us as an informed 
perspective directly from Albania, but she also represents a 
new generation of intelligent minds that exists throughout the 
Balkans, committed to the human rights, committed to democracy 
and to Europe. It is the quality of people like her that we 
need in this region and that gives us hope for the future. Dr. 
Biberaj, let me start with you to give your opening statements. 
And then we'll go to Ms. Shahini.

           ELEZ BIBERAJ, EURASIA DIVISION DIRECTOR, 
                        VOICE OF AMERICA

    Mr. Biberaj. Thank you very much, Mr. Chairman. Congressman 
Engel, good to see you. Thank you very much for the invitation 
to testify before the Commission. It is an honor for me to 
appear before you and to offer my personal views on Albania's 
political prospects and democratic challenges.
    The June parliamentary elections will mark a milestone in 
Albania's political development. They will be a test of the 
country's democratic maturity and of its bid to join the 
European Union. Albania's record of contested elections and the 
post-election disputes have raised concerns regarding Albania's 
ability to hold free and fair elections in accordance with 
international standards. And as the current dispute over the 
composition of the Central Electoral Commission demonstrates, 
the lack of a stable electoral infrastructure has undermined 
confidence in the electoral process and the administration of 
the elections.
    The upcoming elections offer both challenges and 
opportunities for Albania. The inability to hold smooth 
elections is politically risky for Albania. It will hamper its 
political stability, it will signal a worsening in democratic 
practices and it will complicate Tirana's relations with the 
United States and the European Union.
    Credible elections, on the other hand, whose results are 
certified by domestic and international observers and accepted 
by the major players, will open new opportunities for Albania. 
Albania would be able then to build on the significant progress 
that the country has achieved in recent years. It will 
strengthen its role as a constructive regional actor and will 
significantly improve its EU membership prospects.
    Albania has made remarkable progress in terms of its 
economic and social development and efforts to join Euro-
Atlantic institutions. The Albanian political landscape is 
fundamentally different today from 10 years or 20 years ago. 
But still, Albanian politics remain deadlocked and deeply 
dysfunctional. Some of the difficulties that Albania has 
encountered on its road to a consolidated democracy can be 
ascribed to the country's lack of a democratic culture, the 
communist legacy and economic underdevelopment. However, the 
current high level of politization and defragmentation is a 
direct result of the two major political parties, the ruling 
Democratic Party and the opposition Socialist Party, refusing 
to engage in the give and take that is normally associated with 
a democratic order.
    The failure to embrace the rule of law, the widespread 
corruption that we see in Albania today and political 
stagnation has left the country without durable, democratic and 
civic institutions. Since the 2009 elections, which the 
Democratic Party won by a narrow vote, Albania has experienced 
a serious crisis and relations between the government and the 
opposition have been marred by constant tensions.
    The Socialists contested the results, boycotted the 
parliament, resorted to threats, ultimatums and other 
destructive actions in pursuit of their demands. The Democrats 
maintained an uncompromising attitude and refused to take any 
meaningful measures to reach out to the opposition. The dispute 
over the elections, led to a long political impasse. It 
diverted attention from other much more important issues, like 
economic and social challenges that the country faces. It 
stalled progress on key reforms and tarnished Albania's image 
and democratic credentials. In December 2012, European 
Commission refused for the third year in a row to grant Albania 
candidate status.
    Despite the controversy surrounding right now the 
composition of the Central Electoral Commission, the election 
campaign so far has been conducted in a much calmer and dynamic 
environment than in past elections. While there are dozens of 
political parties, the Democrats and the Socialists continue to 
dominate Albanian politics. Other smaller parties have limited 
popular support and most of them are led by politicians who 
split off from the Democratic or Socialist Party over 
disagreements with their top leaderships.
    With the exception of two new forces that are contesting 
the elections on their own, and those are former President 
Bamir Topi's New Democratic Spirit and the Red and Black 
Alliance, all other parties have coalesced with the two major 
parties' coalitions.
    The Democrats have been in power since 2005 and under their 
leadership, Albania has made significant progress on many 
fronts. But after eight years in power, the ruling party 
appears vulnerable and concerned about an erosion in its 
popularity. Some blame the government for the post-2009 
election gridlock and the slow progress that the country has 
made towards EU integration.
    In addition, growing economic hardships, the inability of 
the government to decisively address the corruption issue and 
increased social discontent make the Democrats susceptible to a 
public backlash. The Socialist Party views the 2013 elections 
as its best chance of returning to power. And it hopes to 
benefit from a possible anti-incumbent backlash. The Socialists 
have made very ambitious election pledges, focusing thecampaign 
on accusations of poor governance, mismanagement, corruption, and 
Democratic stronghold on institutional power.
    Albania, Mr. Chairman, is a country at a critical 
crossroads, torn between a potentially destabilizing political 
confrontation and the aspiration for national prosperity, 
democratic consolidation and European integration. The country 
cannot afford another contested election that would likely 
trigger a destabilizing conflict and adversely impact Tirana's 
relations with Washington and Brussels.
    The elections offer Albanian political actors an 
opportunity to move beyond the usual zero-sum game approach to 
elections, to demonstrate their commitment to democratic 
consolidation and to re-institutionalize democratic politics. 
The end of the political deadlock and the brinksmanship that 
we've seen in recent years would unleash the great potential 
that the Albanians have, and it would pave the way for 
Albania's membership in the European Union. Elections alone, 
however, even if they're held in full accordance with the 
highest international standards, are not a salve for Albania's 
democratization. The new government that will emerge from these 
elections will be faced with formidable challenges and can ill-
afford to be distracted by a prolonged post-election dispute.
    Albania has the capacity to reinvigorate democratic reforms 
and restore the public's confidence in the political process. 
But to re-energize democracy and advance their nation's 
democratic aspirations, Albanian political elites must do much 
more to establish the rule of law, to empower nonpartisan 
institutions, reduce corruption and dispel the widespread 
perception that politicians are enriching themselves at the 
expense of average citizens. The role of the international 
community will remain critical. The United States and the 
European Union have been forthright in their support of 
democracy, as well as in their criticism of democratic 
failings.
    While domestic political polarization and gridlock have led 
to ``Albania fatigue'' in some circles, I think it is important 
that Washington and Brussels continue to engage Albania, using 
their very significant leverage to promote democratic progress, 
as well as to address democratic transgressions. A stable, 
democratic and prosperous Albania, firmly anchored in the Euro-
Atlantic community, is in the national interest of the United 
States.
    Mr. Aderholt. Thank you for your testimony.
    Ms. Shahini, we would like to hear from you. Please 
proceed.

  BESA SHAHINI, SENIOR ANALYST, EUROPEAN STABILITY INITIATIVE

    Ms. Shahini. Thank you very much. We, as a think tank, have 
been working for many years, since 1999, in producing in-depth 
research on social and economic developments in the Balkans. 
And we contribute to debates about EU integration of the 
western Balkans, Turkey and south Caucasus. This moment in 
Albania's history is actually very momentous when it comes to 
what's happening with EU enlargement and considering that these 
elections will, in a way, determine the next steps of Albania 
path towards EU integration.
    Now, what we are seeing on the ground actually is that it 
has already started off on a bad footing. And we would like to 
draw attention to recent violations of democratic principles in 
Albania, as the country's preparing for its June elections. 
There was always fear that these elections would fall short of 
international standards and precipitating a major political 
crisis, and the results would then be a loss of a credible 
prospect of progress towards European integration.
    But to counter this risk, we would actually like to make a 
call and argue that the international community must take a 
strong and uncompromising stand on the democratic principles 
that must be observed. And we still have a chance, I believe, 
to make a difference here.
    As was said, Albania has applied for EU membership four 
years ago. It hasn't yet received a positive response because 
it hasn't met political criteria. One of the key criteria is 
the stability of institutions. And since the 2009 elections, as 
was already mentioned, for two years in a row the opposition 
boycotted the parliament and the institutions were just not 
there to be able to foster the kind of political consensus that 
is necessary for the kind of deep reform that the EU 
integration process requires.
    Now, what this means in the geopolitical context of the 
western Balkans is that there is increasingly two different 
groups of countries forming in their path towards EU 
integration. It is the countries that are frontrunners in 
making progress--like Croatia which is joining this year, 
Montenegro, that has started negotiations, and likely with 
Serbia, now with agreements with Kosovo, might actually receive 
a date for starting negotiations.
    And the laggers, which include: Albania, Kosovo, Bosnia-
Herzegovina and, as long as the name issue is not resolved, 
Macedonia. In this, we see a bit of a problem because it is the 
poorer parts of the western Balkans that are reinforcing in 
this vicious cycle of remaining where they are and not moving 
forward.
    One of the requirements by the European Union for Albania 
has actually been on elections as well. And there were two out 
of the 12 priorities that the commission had pointed out for 
Albania that pertained specifically to elections. One has to do 
with Albania must modify its electoral legislation in 
accordance with OSCE recommendations, which has mostly been 
done for six months in 2012 in an election reform. And the 
second is that it must ensure that the elections are conducted 
in line with the European and international standards, and here 
is where we believe that already a breach of these standards 
has occurred.
    As we have said, there was a removal of one member of the 
Central Election Commission by the parliament in the middle of 
April--15th of April. And this followed a change in party 
coalitions. So the Socialist Movement for Integration, which 
was a coalition member of--with the Democratic Party that was 
forming the government, moved into a pre-election coalition 
with the Socialist Party.
    And the Democratic Party parliamentary group then put in a 
request to remove the member that was actually nominated by the 
Social Movement for Integration from the Central Election 
Commission and replace him with another member from party that 
was in coalition with the Democratic Party, which was the 
Republican Party.
    The U.S. Ambassador to Tirana made a statement as this 
discussion was happening in the parliament. And he actually 
said that the CEC was properly and legally constituted and 
mandated and its institution is responsible for the conduct of 
the election. And as such, it is important for the independence 
of this institution to be respected. The CEC should be free 
from interference of any individual or any institution, and 
that includes the parliament of Albania, indicating that this 
was violating the principles that were enshrined in the codes 
that organize elections in Albania.
    Following this, the Democratic Party parliamentary group 
found a decree from 2003 that removed the Mr. Muho who is the 
Socialist Movement for Integration Party nominee to the Central 
Election Commission----
    Mr. Aderholt. What is his name?
    Ms. Shahini. Mr. Muho--M-U-H-O.
    Mr. Aderholt. Thank you. Go ahead.
    Ms. Shahini. And he basically said that he was removed from 
his duties as a prosecutor because of a violation and proposed 
that his nomination was in fact against the law and it was 
breaching Article 12 of the electoral code, which had said that 
you cannot nominate someone who has been removed from office 
onto the Central Election Commission. This was then voted after 
12 hours of debate in the parliament. And Mr. Muho was removed 
and replaced by a member from the Republican Party.
    Following this, three Central Election Commission 
commissioners from the opposition resigned. You had asked 
Ambassador Reeker what was the reason for their resignation. 
The way that they described this, is that since the legitimacy 
of the institution was already touched, they cannot continue 
working in an institution the legitimacy of which has already 
been put into question.
    This now poses two challenges for the organization of this 
election. One is that the democratic principles and the 
legitimacy of organizing this election has been already 
breached, but the second is that we have the Central Election 
Commission with four members only, that cannot actually do its 
functions properly, one of them being adjudicating on 
complaints.
    This election will most probably be very close, as 
elections always are in Albania. There are indicators for 
people who are looking into possible election results--there 
are indicators that maybe there are going to be four or five 
regions and districts where there will be 500 to about a 
thousand votes that will determine a seat going one way or 
another.
    And it will come down to the institutions that will be 
counting those 500 to a thousand votes. There should be trust 
enshrined in those institutions that will actually be counting 
these and, should there be problems, there's an institution 
that will be adjudicating on the complaints following this.
    What can be done? Outsiders cannot really substitute for 
the goodwill of the national leaders. They can, however, help 
mitigate conflicts before and during and after the election 
day. And the key message from all international observers, and 
in particular from European Union, must be that all Albanian 
institutions must rigorously respect the laws they themselves 
have adopted. And setting out red lines in advance makes it 
less likely that they will be transgressed.
    One of the red lines is that members of the election 
administration cannot be removed for reasons not specified in 
the code. And the second is that counting and adjudicating of 
complaints and appeals must be through strict observation of 
election code procedures. Now--by taking a clear position now 
and insisting on a reversal of the decision to dismiss a member 
of the CEC who had been appointed for six years, the U.S. and 
the European Union increase the likelihood that such red lines 
will not be crossed.
    And we do realize--in closing, we do realize that most 
leverage here lies with the European Union, considering that 
Albania is attempting to join the EU, however the voices from 
the U.S. and the statements from the U.S. are very important, 
not only for the Albanian public but for the Albanian 
politicians as well. And I think making these strong statements 
on how these elections should be conducted by actually 
following the principles enshrined in the election code will be 
very important. Thank you.
    Mr. Aderholt. Congressman Engel, I'm going to turn it over 
to you and let you ask any questions to start the round.
    Mr. Engel. All right. Thank you. Thank you very much. First 
of all, Dr. Biberaj, it's a pleasure to see you again. We have 
seen each other many times over the past 25 years. And your 
work--your good work within not only the Albanian community but 
VOA and all the other things is duly noted. And I found your 
testimony to be very, very important testimony. So I want to 
thank you for that. And Ms. Shahini, I don't know you as well 
as I know Dr. Biberaj, but I appreciate your testimony and 
getting to the heart of the matter.
    Let me ask Ms. Shahini something first, and then I'll ask 
Dr. Biberaj. I'm very interested in your description of the 
controversy with Mr. Muho, the members of the CEC. You 
explained why there are three vacancies now at the CEC. Does 
the fact that there is already a dispute over the CEC, as you 
described, bode not so well for what might happen down the road 
with the elections?
    The fact that the parliamentary elections were held and 
then the party who lost did not return to the parliament I 
think showed the outside world that perhaps Albania wasn't 
quite ready to move to the next step. Are we in danger of 
seeing that happen again because of this dispute with the CEC?
    Ms. Shahini. Absolutely. Thank you for this question. 
Absolutely. We believe that that is why this is such an 
important conversation to have right now and to try and see if 
something can be done to reverse what has happened and to 
reconstitute somehow a Central Election Commission before the 
election takes place. A lot of the functions can be done with 
four members. However, after the election day--after the 
counting, it's going to very impossible for them to dispatch of 
their duties with only four members. They will need five out of 
seven.
    And because the election's going to be so close, the fear 
is that the incentives for both election fraud and for accusing 
each other of election fraud even if there isn't any, will be 
very high. So it is important that the institutions in place 
are trusted and are allowed to dispatch of their duties without 
being politically influenced.
    Mr. Engel. Help me again to understand. Each of the major 
political parties appoint three people to the CEC and then it 
would seem that the swing vote, the seventh person, is 
appointed--or was from, you said, the Republican Party which 
was in coalition with the Democratic Party. We got to work on 
that, Robert, and have Republicans and Democrats in Washington 
do something in coalition. (Laughter.)
    But because these commissioners are politically appointed, 
is it unrealistic for the party that is in a coalition-majority 
to say, well, since the person who was appointed switched 
sides, we should be entitled to having our person? I mean, 
we're talking on the one hand about making the CEC 
independent--making an institution that impartially looks at 
the elections, but then we see that the CEC is constituted by 
political appointments.
    So by its very nature it's a divided commission with that 
seventh vote sort of the swing vote. So of course they're going 
to argue over that seventh vote. That seventh vote could well-
determine who wins theelection down the road. So isn't that an 
inherent conflict, to have the parties appointing these commissioners 
and then expecting them to conduct an election free and fair of 
whichever party that each side belongs to?
    Ms. Shahini. Thank you for that question. The nominations 
are political. Three nominations come from the government 
coalition and three come from the opposition, and then there is 
one independent. However, they are voted by the parliament for 
a mandate for six years each. And they're supposed to discharge 
of their duties apolitically. And they cannot be influenced 
politically. And this is inherent in their job descriptions.
    It is like, for example, appointing to the U.S. Supreme 
Court. They are political, but then they cannot be removed 
every time government changes. In this respect, it is no 
problem that they are politically nominated if they are allowed 
to then do their work properly after they are sworn in by the 
parliament.
    Mr. Engel. Thank you very much.
    Dr. Biberaj, how has the Euro crisis affected Albania 
economically and socially, especially since Albania has ties, 
obviously, to Greece and Italy, which are nearby. Is the 
Albanian economy rebounding or is it really a captive of what 
goes on in the rest of Europe?
    Mr. Biberaj. Thank you, Congressman. Italy and Greece are 
Albania's most important economic partners. There are probably 
between 800,000 to one million Albanians who live and work in 
Greece. And these are Albanians who moved to Greece since the 
early 1990s. Albania seems to have weathered the crisis 
relatively well in the last three years, but economic growth 
rates declined last year. Real GDP growth in 2012 was 1.6 
percent, that is down from 3 percent in 2011, and 3.5 percent 
in 2010.
    This year, according to forecasts, it will still have 
positive growth, but it's likely to be around 1 percent. So the 
crisis in Greece and Italy has had a significant impact, 
leading to a drop in capital and also in the remittances, 
especially from Greece. Another problem that the government has 
faced has been the difficulty of attracting foreign 
investments. And that has been a real challenge.
    Mr. Engel. Thank you. Could either one of you discuss the 
role of the media in Albanian politics? How accurate is the 
news reporting by state broadcasters and various private 
outlets? Is there evidence that the population is seeking 
university of viewpoints or do people watch or listen to or 
read the media that only reinforces their existing views and 
biases? We know, for instance, the various newspapers tend to 
lean in one direction or another. Do people who generally 
support whatever party only read those papers or are there 
large segments of the society still open to be influenced? What 
role does the media play in this?
    Mr. Biberaj. I can try to address that, Congressman. 
Albania has a vibrant and free media. All forces have access to 
the media in Albania, the print media as well as television, 
and of course, the Internet. The public broadcasting, the 
public TV tends to give more prominent coverage to the 
government and to the ruling party.
    But while the media is free, it cannot be said that it is 
independent. There's been a failure to provide accurate and 
balanced reporting, not only on the part of the state 
television but also from private TV stations. Most of them are 
allied either with the Democratic or the Socialist party. Some 
of them are owned by powerful businessmen, who more or less 
dictate the editorial policy.
    Both the Democrats and the Socialists have used the media 
to buttress popular perception of their own leadership, while 
questioning the ability of the opposing camp to effectively 
lead the country. During the election campaigns, the media do 
make an effort--they have to make an effort to provide balanced 
viewpoints, explain the different party platforms and we're 
beginning to see that. So there is an opportunity for debate, 
for roundtable discussions. And what we're seeing in the recent 
past, in the last few years or so, the various political forces 
and the political leaders are making increased use of the 
social media to publicize their programs and also to engage 
voters.
    Mr. Engel. Let me ask you, since you know the country so 
well, what do you see as the concerns of private citizens in 
Albania? We have discussed with the State Department and the 
international community what we can do to influence the 
situation in Albania to make sure there is free and fair 
elections. But is there also pressure within the country, from 
the average person, to hold free and fair elections and to hold 
elected officials accountable for their actions and to advocate 
the policies and the reforms which would move the country 
forward? What is the role of average citizens, and is it a more 
positive role as the years go on than, let's say, 10 years ago?
    Mr. Biberaj. There is some popular pressure on the 
politicians, but not enough pressure, in my view, to really 
have an impact on the behavior of the politicians. In terms of 
the most important concerns that the population has, I think 
it's the economy. Despite the significant progress that Albania 
has made, poverty is widespread and unemployment is very, very 
high. People are very concerned about widespread corruption. 
And the slow progress toward EU also appears to be a serious 
concern.
    In terms of the civil society, there are a lot of 
nongovernmental organizations, but their impact is pretty 
limited, in my opinion, but perhaps my colleague can throw some 
light on the situation.
    Ms. Shahini. Just very briefly, civil society has been 
pushing for free and fair elections. Of course, there are all 
these organizations that are planning to monitor the election--
the Coalition of Local Observers being one of them--a coalition 
of many organizations, including this. However, it's very 
difficult, I think, for civil society organizations to become 
an actor in a place where the rule of law is not respected. If 
political agreements among two political parties go above the 
law, which means that the smaller parties, civil society and 
the citizens are going to be marginalized. And in this respect, 
again going back to how indicative this decision on Central 
Election Commission was, notwithstanding how much work the 
civil society's been doing, it has only a limited role in this 
respect.
    Mr. Engel. And finally, let me ask both of you a question 
about what you believe, if you could predict, will happen in 
the June 23rd election. Not who's going to win, but will these 
elections be conducted in a free and fair way, by and large, 
and will the political leaders respect the results, win or 
lose? Do you think they might avoid provoking confrontations? 
We had some confrontations last election, some of them violent. 
Then after the election is held, what can they reasonably do 
after the election is held to get them into parliament and 
government off to the best possible start?
    Mr. Biberaj. I'm cautiously optimistic that Albania will 
have good elections. I think Albania has a capacity to hold 
free and fair elections. The last four years have been a good 
lesson to the politicians of Albania, and I believe they do 
realize what is at stake and will give priority to the national 
interests of the country rather than to their own personal or 
party interests.
    What is also important, I think, is to have a strong 
international observer presence in the country during the 
elections, to have the U.S. and the EU maintain a unified 
stand, both in terms of rewarding Albanians for good elections 
but also taking actions if there are violations. And the 
international community should be willing to use its leverage. 
The U.S. and EU have significant leverage, and they should use 
it if in fact there are serious election transgressions.
    Mr. Engel. Thank you.
    Ms. Shahini.
    Ms. Shahini. I actually believe that these elections will 
be contested, especially if the Central Election Commission 
remains with four people and that means that one level of 
adjudication will be removed from the institutions that work 
with adjudicating complaints after the election. So we fear 
that a crisis will ensue after the conduct of the election in 
June of this year.
    Mr. Engel. OK. So we have one on a more positive note and 
one more negative one. I hope that all parties in Albania will 
understand that the world is watching these elections and could 
very well determine whether Albania moves forward or backward. 
I hope they will move forward, and I hope that is what will 
happen.
    Thank you. Thank you both.
    Mr. Aderholt. Thank you. Let me just follow up and, because 
I find this CEC issue very intriguing, ask how as to move 
forward. Before going to the next panel, clarify for me right 
now that you have the majority party that submits three names, 
the minority party that submits three names. I'm unclear on the 
seventh name, which is not to be aligned with either party. How 
is that name submitted, or how is that person selected?
    Ms. Shahini. With the recent changes to the electoral code, 
the seventh person, which is also the chair of the Central 
Election Commission, independently applies, and the parliament 
votes on a number of applications, and they choose one person. 
So the seventh member is not a political nominee.
    Mr. Aderholt. All right. And I think, really, Congressman 
Engel really sort of really hit the nail on the head when he 
mentions the fact that you try to set this up as an apolitical 
institution, but you have political nominees that must follow 
through with it and so I think that's a sticking point, when 
you have to try to make an apolitical or nonpolitical 
commission, but yet do that through the parties. And so, I 
think, that's what makes this so difficult, because I think 
each party sees each of those members as somewhat supportive of 
their principles, and then, of course, that seventh is someone 
that maybe should not be political or perhaps not submitted by 
either party.
    So this is something I think we're going to have to watch, 
since we're having a breakdown with part of the commission that 
has resigned, so to speak. And clearly, I think you need seven 
members for it to function. And I would agree with you, Ms. 
Shahini, that that has to be seven members to be functional. I 
think operating with either the ones from the minority or the 
majority, it's just not a good recipe to move forward.
    Has there been any discussion that either one of you have 
heard about maybe starting over and just appointing a new 
commission altogether and let each party submit new names and 
just start from the beginning and try to move forward at that 
point?
    Ms. Shahini. Thank you. I think, before answering that, I 
just want to say that we sympathize with this need to have a 
politically balanced CEC. However, it's not foreseen in the 
code. The whole idea of having an electoral code and following 
it strictly is that it ensures trust in elections. So in this 
respect, since the code does not foresee firing people for any 
other reason but grave breaches of law, the removal was 
illegitimate in this respect. And thus, it raises questions 
about the legitimacy of the election.
    Parties are discussing. I think the Socialist Party has 
proposed some other way of reconstituting the Central Election 
Commission. However, it should be done according to what the 
code foresees. So any other suggestions that are not according 
to the law will then breach these principles that we're trying 
to uphold anyway. So I think a lot of thinking has to be now 
put in place about what can be done. Instead, what we are 
suggesting is to go back to how the central election commission 
was . . .
    Mr. Aderholt. If this is not resolved so that each of the 
parties is satisfied on this, do you think that the election 
should be postponed?
    Ms. Shahini. I cannot answer that. I don't know.
    Mr. Aderholt. Dr. Biberaj, could you comment on that?
    Mr. Biberaj. I'm not aware of any discussions on this issue 
between the Democrats and the Socialists, although there might 
be talks going on behind the scene. There's a possibility for 
the U.S. ambassador and the EU ambassador there to mediate 
this. I think postponing the elections would be a very, very 
bad development.
    There is time to resolve this issue, and if there is 
political will on both sides, I think they can resolve it. But 
postponing the elections would send a very, very bad signal to 
the people of Albania, to the international community and would 
signify that the Albanians are really not very serious about 
their democratic aspirations or at least their politicians are 
not.
    Mr. Aderholt. No, I agree. And don't take me wrong: I'm not 
suggesting that that be the situation, but considering there's 
a breakdown in this CEC that seems to be the real crux of this 
election, that poses a real problem and clearly having four 
members is a real problem just from the appearance of it.
    So anyway, we will follow it with great interest over the 
next few weeks and we appreciate both of your testimony here 
this afternoon and look forward to working with you in the 
future on Balkan and Albanian issues. Thank you.
    Ms. Shahini. Thank you.
    Mr. Aderholt. Our final panel features Gilbert Galanxhi, 
the Ambassador of the Republic of Albania to the United States 
of America. He is a good friend of the Helsinki Commission and 
has previously served in Vienna as his country's representative 
to OSCE. He knows the issues that OSCE deals with very well. As 
with other countries at other hearings, it is only right to 
afford the opportunity to an ambassador to respond to the 
concerns that are raised today. It may not be an easy task, but 
your presence here, Mr. Ambassador, is a recognition that it is 
legitimate for us to raise these concerns and that we raise 
them in the spirit of friendship and the desire to improve the 
lives of the citizens of Albania.
    So I wanted to thank you for being here today, and look 
forward to your testimony. We are sort of on limited time this 
afternoon, so if you could limit your comments and we'll submit 
your entire statement for the record so that we can get to the 
questions. So you may proceed.

GILBERT GALANXHI, AMBASSADOR OF ALBANIA TO THE UNITED STATES OF 
                            AMERICA

    Mr. Galanxhi. Thank you, Mr. Chairman. Honorable 
Congressman Engel, distinguished participants, please allow me 
to thank the U.S. Helsinki Commission for providing me this 
opportunity to share with you some thoughts on the 
achievements, developments and concerns that Albania has been 
experiencing recently. I also want to thank all the previous 
speakers for their presentations.
    Distinguished friends, it is an undeniable fact that 
Albania has made tremendous progress in the last two decades in 
every respect--in economy, trade, investments, infrastructure, 
public order, education, institution-building, et cetera. But 
this does not mean that we are self-satisfied with that. On the 
contrary, we are fully aware that we have a lot more to do.
    Yet, what you and almost all Western democracies have 
achieved in more than 250 years we have sought to achieve in 
less than 25 years. We are conscious that we have to, because 
there is no other agenda, nor any better option for Albania 
than full integration into the European Union. We fully 
understand that this requires us to fully embrace the best 
standards and norms as enshrined in the Helsinki Final Act. 
Nobody has ever said that this will be easy. We are fully aware 
of that.
    It would be quite unrealistic to pretend that everything 
has been going perfectly well in Albania. That is why we are 
here today trying to recognize the progress that has been 
achieved while at the same time throwing light to the 
difficulties that we are encountering, and most importantly, 
trying to find the best solutions for moving ahead. We need and 
appreciate the good advice and assistance that comes from our 
best and principled friend, the United States of America.
    In 2009 elections, Albania met most OSCE commitments, 
including all key commitments. Yet the result was not accepted 
by the losing party, which boycotted the parliament for two 
successive years. A lot of opportunities were lost, especially 
with the crucial reforms needed for speeding up the EU 
integration process. Following the November 2011 political 
agreement between the Democratic Party and the Socialist Party, 
a number of laws that require consensus between the ruling 
majority and the opposition have been approved, including 
changes to the constitution for limiting the immunity from 
prosecution for members of parliament, government ministers and 
judges.
    Also vitally important was the consensual electoral reform, 
which led to an improved electoral code, an improved climate of 
cooperation as well as the agreement on a very balanced Central 
Election Commission--CEC--and the other subordinate 
commissions. The electoral process in Albania appeared to be 
unfolding smoothly. Quite unexpectedly, a month ago, the second 
biggest party of the governing majority, after co-governing for 
four years, decided to pull out of the government and join the 
opposition. From that moment, we have to live with the new 
political reality in Albania. We cannot ignore this new reality 
in offering prescriptions and making decisions with respect to 
very important issues, such as election administration.
    During these recent weeks, there has been a very hot debate 
regarding the composition of the CEC, which is the main 
institution responsible for the preparation and conduct of 
elections in Albania. There are two main elements that must be 
taken into consideration in order to understand this problem, 
but more importantly to give sound judgment with the long-term 
positive affect on the country.
    One, respect for the legal framework that has been in place 
in Albania since 2004. According to the existing legal 
framework, the parliament had all the legal basis to fix what 
seemed to be broken. It acted to remove one member of the CEC 
because his appointment had been made in violation to the law, 
specifically it was determined that he had given false 
testimony in his confirmation hearing session, hiding the fact 
that in 2003 he had been dismissed from the duty of public 
prosecutor by a presidential decree. The parliament reacted as 
soon as this fact became known.
    The second, respect for the political consensus in favor of 
a politically balanced CEC; That was agreed to when the current 
government was in opposition and the current opposition was in 
power. Under this agreement, the governing majority has a four-
to-three majority in the commission, but the opposition is 
protected by the requirement of Article 24 of the electoral 
code that says: The CEC can only act when no less than five 
members have voted in favor. The shift of one party from the 
governing majority to the opposition misbalanced, not only the 
CEC but also all the subordinate commissions at the regional 
and local levels.
    Consequently, and artificially, we have the opposition 
becoming majority in CEC with four members and the governing 
majority becoming majority with three members. Accordingly, 
because of this distortedreality, the opposition would control 
50 percent of the regional commissions, with a four-to-three majority, 
as well as the other 50 percent of the regional conditions with a five-
to-two advantage, which means no blocking mechanism at all.
    In every true democracy, the term democracy means the will 
of the majority through the right of vote. Through an open and 
transparent vote, the Albanian parliament did the right thing 
legally, politically and morally, to bring back the integrity 
and the legitimacy of a balanced CEC as a guarantee for having 
a standardized process, as well as free and fair elections. In 
order for the process to flow smoothly, the vacancies in the 
CEC and all subordinate commissions must be filled out as 
required by the law.
    Thank you. For the record, the full version will be 
distributed and deposited with the Helsinki Commission.
    Mr. Alderholt. Thank you, Ambassador. Thank you for your 
testimony and we appreciate your presence here today.
    Let me just ask you about the situation in Albania as a 
whole and your thoughts on the citizens of Albania being 
satisfied with the pace of progress in the democratic 
development that has occurred over the last decade. Do you see 
the people satisfied with the pace of progress? And what are 
some issues that you think may need to be addressed?
    Mr. Galanxhi. Thank you for the question, Mr. Chairman. I 
believe that the majority of Albanians are satisfied with the 
pace of progress. So, as I said, we have moved ahead so rapidly 
in the last two decades, and especially in the last eight 
years. Who'd ever thought that Albania would be a NATO member a 
few years ago?
    Economic reforms have progressed well. We all know the 
economic difficulties of the world after 2008, 2009. Albania 
still kept growth of its GDP, not at the desired figures, but 
it still kept growth. So we didn't have a recession. Foreign 
direct investment has been constant. So we receive almost one 
billion U.S. dollars every year in foreign direct investments. 
And our main trade partners are Italy, Greece and Turkey, and 
now we see Canada in first place for foreign direct 
investments. So we have made this mechanism to move forward.
    And furthermore, the government has taken all the necessary 
steps to ease doing business in Albania. So all tendering 
procedures are electronic. So all bidding is electronic to 
increase transparency. And doing business is easy because it's 
one-stop shop. You can register your business in one day or in 
a few minutes, let's say. So the fiscal system that we use is 
quite appropriate for attracting foreign investments and 
investments in general, even locally, because it's very 
flexible, it's very appealing and creates great win-win 
opportunities for foreign investors but also for the Albanians.
    Mr. Alderholt. Does the Albanian government see that the 
role that OSCE plays is useful as we try to encourage the 
political dialogue?
    Mr. Galanxhi. Being an ambassador to OSCE in Vienna, so I 
think I know this area well, we really evaluate the cooperation 
that we have with OSCE, with the Parliamentary Assembly and 
with ODHIR as well, as a value that is helping Albania move 
forward in its democratic path. So we know there is criticism 
sometimes, but we know this criticism comes from our good 
friends who wish us well. So they are not ill-intended. That's 
why we view the cooperation with OSCE in Albania--and it has a 
good presence; I think we have several good missions there--as 
very fruitful.
    If you consider the electoral code, which has passed with 
consensus in Parliament, it's a product of cooperation with 
OSCE and we have to thank them for giving us very good advice. 
It's a very good code. It only needs a good political will by 
all parties to apply it. I can quote you about, let's say, the 
composition of CEC. It's crystal clear how it is elected. You 
know, it's three members that come from the governing 
majority--the governing coalition and three members that come 
from the opposition coalition. And the seventh member, just to 
clarify, belongs to the governing majority, but they present 
several candidates to the opposition and the opposition can 
pick and choose the person who seems to be more fit for the 
job. This is it.
    So that's why I mentioned that the Central Electoral 
Commission has a ratio four-to-three for the governing 
coalition because at the very end of the day it's the 
government which is held responsible for conducting elections. 
Opposition is an opposition.
    Mr. Aderholt. Well, thank you, Ambassador. Mr. Engel.
    Mr. Engel. Thank you. Hello, Mr. Ambassador. It's good to 
see you. And you have, in my opinion, done a fine job for 
Albania. We have had many, many contacts. So it's good to hear 
you.
    I agree with you, in your opening statement, that Albania's 
made great strides but there is still a lot of work to do. And 
I am very concerned about this Central Election Commission 
dispute, because anything which may cast doubt on the viability 
of the elections after they're held, you know, cannot be good 
for the country. We all share in wanting to make sure that the 
elections are free and fair, and that all sides have had the 
ability to participate freely and fairly.
    So I'm worried that, if there is another close election as 
we've seen in recent years, this dispute in the CEC could make 
it seem like the elections were not free and fair. So I hope 
that this can be resolved because I think to leave it hanging 
going into June 23rd would be a very bad mistake. I wonder if 
you have any comments on that.
    Mr. Galanxhi. Thank you, Mr. Congressman. I fully 
understand that this is not a pleasant situation, having only 
four members in the commission working and three others not 
being present there. The problem is, as you mentioned before, 
that these members of the CEC are elected by parties, and it 
would be, let's say, very naive to believe that they are 
apolitical. What we witnessed is that three members of the 
commission resigned. Everybody believes upon an order by the 
party.
    And even if I quote my previous speakers, they refer to 
them as members from the opposition. Everybody in Albania knows 
that members in the commission are promoted, are also proposed 
and are also elected by the parliament, which is a political 
body. So it would be quite unfair to believe that these seven 
members of a commission, the next morning, become nonpartisan 
and apolitical. We have to keep that in mind. We have to be 
realistic and true to life. The electoral code is crystal clear 
about that.
    I may quote articles, but you can refer to articles 12 and 
14 and 18. It's crystal clear. Two commissioners are proposed 
by the ruling governing party, which has the majority of seats. 
The third is proposed and elected by the second biggest party 
or the second groupings of the governing majority. The fourth 
and the fifth are proposed and elected by the biggest 
opposition party in parliament. The sixth is proposed and 
elected by the second biggest party or the second-biggest 
grouping in the opposition. So you have a perfect balance, 3 to 
3.
    And then you have the chairman of the commission, who is 
elected upon the proposal of the ruling coalition--the 
governing coalition--with the endorsement of the opposition so 
that they can pick and choose among three or four candidates. 
And there is also a perfect balance achieved, at least in law, 
in providing for the rest of the commissions, for the whole 
pyramid of commissions--regional and polling stations--where 
you have 50 percent of the commissions that should be 
controlled by the opposition with a 4 to 3 majority, and 50 
percent from the governing coalition, again with a 4 to 3 
majority.
    But, it is also crystal clear in electoral code that for 
important decisions, you need five votes, which gives the 
opposition the right protection from misuse of power. So you 
cannot pass important decisions with four votes. The problem 
is, this small party that moved from government to opposition: 
It belongs to the government or it belongs to the opposition? 
This is the political question, OK? And the real question--the 
real thing is that, OK, we need to have balanced commissions in 
order to produce a reliable and trustworthy result.
    Mr. Engel. Well, have there been talks to try to resolve 
this, because again, we saw what happened with the election 
several years ago, when one party refused to come to 
parliament. It created an unstable situation, and it set back a 
lot of the movement forward to joining the EU and things like 
that, because this is what countries are looking at. Have there 
been discussions to resolve the situation? Because my worry, 
frankly, is that if this stays the way it is, unless there is a 
landslide for one party or another--and past history shows the 
country's pretty evenly divided--whoever loses the election 
will dispute it and will point to the CEC disagreement as a 
major reason as to why the election was not free and fair. 
That's my worry, and so have there been talks? Have there been 
discussions? Have there been proposals? Is it realistic to 
think that this can be settled before the election? Because I 
really think it's important that it is.
    Mr. Galanxhi. Your concerns and worries are quite 
justified, are quite right. I'm not aware--and I cannot 
predict--what's going on in Tirana between the political 
parties but I always prefer to refer to the law. In any 
possible scenario or possible agreement, the Central Electoral 
Commission will be three members for the opposition, three 
members for the governing majority, and the chairman, who is 
elected by the government majority.
    So the governing majority has already four members. It's 
three vacancies that belong to the opposition. These should be 
filled. This is the requirement of the law. So we have to stick 
to the law. We speak so much about rule of law, but we have to 
apply the law in all its letters. So I don't know if there are 
discussions or negotiations going on. I cannot say it from 
here. But my understanding, by reading the law, is this: that 
in whatever scenario, three members belong to the opposition, 
and the vacancies are there. It's three vacancies.
    Mr. Engel. OK, let me change the subject, and before I do 
that, let me again state that I really hope, as someone who has 
been the best friend of Albania in the entire Congress for more 
than two decades, I really hope that this can get resolved, 
because I can see this dispute spilling over, after the results 
of the election, when whatever side loses will potentially 
attempt to delegitimize the elections based on this dispute 
with the CEC. We were all very, very proud and happy that 
Albania became a member of NATO. Let me ask you what effect has 
NATO membership had on Albania since 2008? Does it make a 
difference as far as internal politics, or is this something 
that both sides have embraced?
    Mr. Galanxhi. Thank you. It's a very good question. I 
believe that this has produced only positive effects. Albania's 
membership in NATO has been a great achievement. It has been a 
rebirth of the Albanian nation, and it has produced much more 
stability not only in Albania but in the region as well. In a 
certain way, it has promoted foreign investment, because they 
consider Albania to be a safe place.
    But also, it has promoted good values into the internal 
politics. So we have seen, after the NATO membership, that 
there was a period of cooperation and good collaboration 
between government and opposition, as it was the case of 
changing the constitution, because there are certain 
requirements that Albanian politicians should behave like 
politicians of a NATO-member state.
    In the region, I think it has produced more stability, 
because fortunately, we see that all the region--all the 
countries, all our neighbors--have at least the goal for NATO 
membership and for EU membership. So in other words, we are 
moving in the same direction but with different speeds.
    Mr. Engel. Well let me ask you, since you mentioned EU 
membership, the possibility of EU membership, how does that 
factor into the politics of Albania today? Joining the EU is a 
strong incentive, I think, for positive change, for moving 
forward, to making sure elections are free and fair, because 
the EU is obviously going to be looking at these elections. So 
what's the next step, in your opinion, which Albania would take 
on this path, and what must it do to take it in terms of 
joining the EU?
    Mr. Galanxhi. I think that EU perspective is the biggest 
carrot that Albania has for the moment. But we have to be clear 
about that. We don't want to have it donated to us, because we 
know we want EU membership in the first place for Albania's 
citizens, and we have to do our homework so that this 
membership can be merit-based. And this lays before all 
politicians in Albania from all the political spectrum the 
perspective of working hard to achieve that. Unfortunately, we 
have missed for three consecutive years the candidate's status 
possibility. I hope that we can make it this year, but we have 
to see the result of the elections and the post-election period 
as well. But I believe this is the big thing that all Albanians 
expect. It was on merit base that we had visa liberalization 
with EU in December 2010, and we believe it will be on merit-
based again for having the candidate status as soon as 
possible.
    Mr. Engel. Well, I'm going to end the hearing on that 
positive note. I know the United States is not a member of the 
EU, obviously, but I hope that Albania will soon become a 
member of the EU. And I want to thank you, Mr. Ambassador, for 
your testimony. I want to thank all the witnesses, and the 
hearing is now officially adjourned.
    Mr. Galanxhi. Thank you.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


         Prepared Statement of Hon. Benjamin Cardin, Chairman, 
            Commission on Security and Cooperation in Europe

    As the chairman of the Helsinki Commission, I want to welcome 
everyone to this hearing and thank them for their interest in our work. 
In a moment I will have the honor to introduce our distinguished 
witnesses who have taken the time to be here to present their views on 
the situation in Albania in the weeks before that country's 
parliamentary elections.
    As the Chairman, it is also my responsibility to set the scene for 
this hearing and to put it into context. This is the second Helsinki 
Commission hearing in a row focusing on a traditional friend and NATO 
ally. The first, in March, focused on Hungary, where we have seen a 
disturbing retreat from democratic norms. In February, the Helsinki 
Commission also visited Turkey, at which time human rights concerns 
were included among the many topics we discussed with that important 
friend and ally. We may need to focus on others in the future.
    To be absolutely clear, this is not an effort to equate the records 
of any of these countries with those OSCE states, from Belarus to 
Uzbekistan, where human rights are far more grossly violated and 
democratic norms are routinely ignored. Instead, this is an effort to 
ensure a united and a credible front when we challenge these other 
countries to meet OSCE commitments. The NATO Alliance is far more than 
a collective defense of territories; it is also a collective defense of 
democracy. The stronger our own democratic credentials, the stronger we 
are as a global force for the positive changes that enhance our own 
security. It is for that reason the Helsinki Commission has examined 
the U.S. record, from our elections to Guantanamo Bay, when it may have 
weakened our own efforts to promote human rights and democratic 
development abroad.
    I stress this point not merely to counter the unserious bluster we 
hear from Moscow or other capitals accusing us of double standards, but 
to emphasize to those in Tirana, Budapest and elsewhere that we are 
very serious when we raise these concerns, and that we expect them to 
be equally serious in their response.
    In the case of Albania, it is also important to note that, despite 
its strong friendship and solid commitment, the weakness of its 
democratic institutions and inability at times to adhere to the rule of 
law can detract from its own contribution to European security, 
especially if these problems lead to rampant corruption and political 
instability. Moreover, Albania serves as a model for other NATO 
aspirants from the region, and it must meet that task.
    We also have seen elsewhere, but particularly in the Balkans, how 
resistance to democratic change can be too easily found in recourse to 
nationalist sentiments. We do not want to see that phenomenon develop 
in Albania as well. Plenty of borders have needed to be changed due to 
de-legitimized authority and policies of either clear aggression or 
brutal repression. Borders will NOT be changed by efforts to sway the 
loyalties of ethnic kin living in neighboring states, who can and must 
realize their rights within those states. We must awaken all those who 
continue to dream otherwise.
    Our hearing title appropriately focuses on the ``pace of progress'' 
in Albania's democratic development. There has, in fact, been 
incredible change in Albania since the Helsinki Commission first 
visited the country in 1990 and since Albania became an OSCE 
participating State in 1991. We have, however, already noted that same 
fact in hearings in 2004 and before. The rapid pace of early progress 
obviously could not have been sustained, but should we be satisfied 
with the much slower pace of the last decade? Should we excuse Albania 
for not having yet held elections that meet the OSCE criteria defining 
free and fair? Should we be content with both the ruling parties and 
the opposition in Albania regularly testing and sometimes exceeding the 
limits of acceptable political behavior?
    In response, some may calmly argue that democracy takes time. That 
may be true, but democracy is a significantly stronger force today than 
it was in the 18th century, when it was held with suspicion even in the 
early American republic, and even the 19th and 20th centuries when it 
struggled to grow in Europe. It is today viewed as the inevitable and 
practical result of the respect shown for universally accepted human 
rights, and many other formerly one-party communist states have 
successfully completed their transitions in much less than two decades.
    Of course, the sheer brutality of Albania's communist past must 
also be taken into account, and it would be arrogant for me or any 
other person who did not suffer through such a period to minimize its 
tragic legacy. At the same time, with everything that the people of 
Albania have been through, they deserve to have the confidence their 
ballots will now be counted, to have the satisfaction that their 
leaders will now serve them, and to have a sense of the security that 
comes from knowing courts now provide due process and blind justice. I, 
for one, will not tell them to be happy with less than these things 
more than two decades after they were finally and rightfully promised.
    I am deeply disturbed by the frequent reports of political impasse 
and confrontation in Albania since the last parliamentary elections in 
2009, with a ``winner-take-all'' approach to democracy that discourages 
dialogue and compromise across the board. I am also disturbed by 
reports of corruption, including at high levels, and the lack of 
political let alone judicial accountability for the alleged 
improprieties of officials. Most recently, I was disturbed to hear of 
the controversy surrounding the Central Election Commission in Albania, 
which must be addressed so that these elections can meet OSCE standards 
and the results will have the legitimacy they need to compel winner and 
loser alike to accept them graciously and then move on.
    I now turn to our witnesses, who will detail these current 
conditions in Albania on the eve of parliamentary elections, as well as 
discuss policy responses. Their biographies are already available. I 
want also to recognize and include for the record the welcomed 
contribution provided by the Delegation of the European Union to this 
hearing. The EU is our partner, and this collaboration reflects our 
mutual interest in encouraging all eligible OSCE countries to realize 
their European aspirations. Similarly, let me recognize and include for 
the record the pre-election assessment prepared by the National 
Democratic Institute, which works hard both in Tirana and Washington to 
encourage Albania to improve its electoral performance.
      Prepared Statement of Hon. Christopher Smith, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    As the Co-Chairman of the Helsinki Commission, I also want to 
welcome the audience for being here and to thank the witnesses in 
advance for their contributions. The Western Balkans has been a 
critical concern to the Helsinki Commission for the past two decades, 
during most of which I have co-chaired this Commission, and 
developments in Albania can have an important impact on the entire 
region.
    My first and only visit to Albania was in 1999, at which time I 
observed the massive wave of people seeking temporary refuge from the 
conflict in Kosovo. Albania managed this sudden and tremendous 
humanitarian burden with all the resources it could muster.
    I also chaired two of the previous Helsinki Commission hearings 
convened to examine the situation in Albania prior to the holding of 
elections. The last was in 2004, when the Socialists were in power and 
the Democrats were in opposition, and I can recall the heavy emphasis 
on the need to fight corruption and the need to support small but 
significant civil society initiatives. While power has shifted, many of 
the needs remain the same.
    As is already known, I am deeply concerned about trafficking in 
persons, and I hope that this can be discussed during the course of the 
hearing. Albania has consistently been listed by our State Department 
as Tier 2, except for 2008 when it dipped down to the Tier 2-Watch 
List. Albania is noted primarily as a source country for trafficking 
victims, including children, for either the sex industry or forced 
labor, but it is also a destination country and has, in the past, been 
a transit country as well.
    Of course, Tier 2 is not Tier 3, but it is not Tier 1 either. It is 
extremely unfortunate that about one-third of our NATO allies, 
including Albania, are now only at Tier 2. I urge these countries to 
set an example and intensify their efforts to combat trafficking, 
including protection, prosecution and prevention. I hope they will have 
improved records in the report that will be released later this year. 
Today, Deputy Assistant Secretary Reeker and perhaps our other 
witnesses will be able to address this issue as it relates to Albania.
    I also would like to address the related issue of organ trafficking 
and the so-called Yellow House case of 1999, when Serbs from Kosovo 
were among the approximately 300 victims who were allegedly killed in 
Albania in order to market their kidneys and other organs. We have 
raised this case in the past, including well before it became a high-
profile issue in 2010, and I know Chairman Cardin has dealt with it at 
the OSCE Parliamentary Assembly in 2011. While the focus of the 
investigation is on Kosovo, it would be useful to get an update on 
where things stand today and the extent to which Albanian officials are 
cooperating to help uncover the facts.
    There may be other issues I would like to raise regarding Albania's 
democratic development and respect for human rights, but it is 
important to hear the views of our witnesses. I look forward to their 
testimony.
       Prepared Statement of Hon. Robert Aderholt, Comissioner, 
            Commission on Security and Cooperation in Europe

    I welcome this opportunity to focus on Albania as it prepares to 
hold parliamentary elections.
    Having visited Albania many times, I know the country has 
tremendous potential. The progress they have made leading to membership 
in NATO is an indication of that potential.
    At various levels both in the government and in the opposition, 
there are talented minds in Albania who do want the country to continue 
to move forward as it has in the past. They often share our frustration 
that there is not greater progress today, particularly as it relates to 
EU membership. They want to see Albania stable, integrated and 
prosperous.
    I also want to mention that I currently serve as a Vice President 
of the OSCE Parliamentary Assembly, and my friend and colleague from 
Slovenia, Mr. Roberto Battelli, will lead the OSCE Election Observation 
effort in Albania. The OSCE, both the Assembly and the Office for 
Democratic Institutions and Human Rights, take this election very 
seriously, and I truly hope they can say, when the process is over, 
that these elections were conducted in a free and fair manner.
    Our job today is to encourage that outcome, and I look forward to 
the testimony of our witnesses.
    Thank you.
 Prepared Statement of Hon. Eliot Engel, A Member of Congress From the 
                           State of New York

    Mr. Chairman, thank you for the opportunity to join your Committee 
today. We both share a long-standing interest in Albania, and I look 
forward to continuing our discussions on efforts to strengthen its 
democratic institutions.
    This hearing is timely as it comes less than two months before a 
crucial parliamentary election in Albania. It is crucial not in the 
context of which candidates will be elected, as that is up to the 
Albanian people to decide, but crucial in terms of how the election 
will be conducted.
    Today, I urge all the political parties to fulfill the commitments 
Albania has made to the Organization for Security and Cooperation in 
Europe on the holding of elections, and the campaigns leading up to 
them. The June 23 election must be judged by the OSCE as free and fair. 
This will not only validate the results for the Albanian electorate and 
the international community, but it will also mandate that all 
political parties accept the final election results and take their 
seats in Parliament.
    As the Co-Chairman of the Albanian Issues Caucus, which I founded 
24 years ago, I have been honored to be part of the effort to advance 
the democratic development of Albania and to preserve the good 
relations between Albanian Americans and their ancestral homelands. 
America has no better friends than Albanians regardless of where they 
live in the Balkans; they have always stood by the United States.
    The citizens of Albania are proudly entering the second century of 
their independence that began on November 28, 1912 when they broke free 
from the Turkish Ottoman Empire. Despite nearly half of a century of 
draconian isolation after World War II under an authoritarian communist 
regime that even perceived the Soviet and Chinese communist models as 
too open, the people of Albanian never lost their belief in their 
European identity.
    I would like to take a minute or two to discuss Albania's Euro-
Atlantic aspirations. In the last two decades, Albania has made 
extraordinary progress towards meeting the standards and norms of the 
value based Euro-Atlantic community. It obtained full membership in the 
North Atlantic Treaty Organization on April 2, 2009, and Schengen Visa 
Liberalization on December 15, 2010.
    What is left now is for Albania to capitalize on the promise of the 
European Union's Thessaloniki Declaration of 2003 that the countries of 
the Western Balkans, including Albania, are eligible for accession to 
the EU. To do so, however, Albania must fulfill the requirements for 
membership. Croatia's July entry this year into the EU validates that 
if a Balkan country meets the requirements the door to the EU is open.
    A free and fair Albanian election in June will go a long way 
towards propelling Brussels to extend to Albania in 2013 EU candidate 
status; the EU's waiting room for membership. This dramatic step would 
signal to Albanians that their living within the borders of the 
European Union by 2020 is a realistic aspiration. This opportunity 
cannot be missed.
    Last month's agreement between Kosova and Serbia demonstrated the 
role of political courage on the part of politicians in ensuring a 
better life and future for their people. It is only because of Prime 
Minister Thaci's willingness to make hard decisions and Prime Minister 
Dacic's willingness to embrace a forward leaning vision that the 
prospects for peace, security and prosperity, within the borders of the 
EU, is something that the citizens of these two countries can now count 
on.
    The same opportunity lies in front of the political leaders of 
Albania, be they in or out of government. Will they exercise the 
political courage to do what is right for their country's future, and 
for the people they aspire to lead to the EU? Politicians, government 
officials, and CentralElection Commission members, at all levels in 
Albanian, are being asked in this June election to do no more, but no 
less than what is expected of their counterparts in elections in any of 
the countries of the Euro-Atlantic community.
    The people of Albanian have the right to have a free and fair 
election as defined by Albanian and OSCE norms; and, thus be assured 
that it is their votes that elect their leaders. The people of Albanian 
also have the right for the election to be conducted in a manner that 
affirms that Albania belongs in the EU. Anything less would be a 
disservice to the remarkable accomplishments of the Albanian people and 
to the potential their future should hold.
    Thank you, Mr. Chairman, for the opportunity to offer my thoughts 
on this matter.
         Prepared Statement of Hon. Michael Turner, Chairman, 
           U.S. Delegation to the NATO Parliamentary Assembly

    I would like to thank Chairman Cardin and Co-Chairman Smith and the 
U.S. Helsinki Commission for holding this important hearing concerning 
our democratic partners in Albania.
    The United States and Albania have long standing relations dating 
back almost a hundred years starting when Woodrow Wilson defended 
Albania's independence following World War I. Following the dissolution 
of the former Soviet Union, President George H.W. Bush quickly re-
established relations with Albania. George W. Bush later became the 
first sitting President to visit Albania in 2007.
    Albania led the region in bringing its people out of the closed 
communist society to an open democratic government with great economic 
opportunity.
    I served as the Mayor of Dayton during the Dayton Peace Accords and 
have a deep understanding of the role the United States played in 
finding a peaceful resolution of disputes in the former Yugoslavia 
states. Albania and Croatia were able to emerge from the turmoil and 
gain entrance into NATO in 2009.
    Albania has contributed significantly to the war against terrorism 
by contributing military forces to the ISAF effort in Afghanistan and 
the U.S. led efforts in Iraq. They have supported U.S. counterterrorism 
efforts by freezing terrorist assets, shutting down non-governmental 
organizations with possible links to terrorist financing, and expelling 
extremists. Their efforts are commendable and demonstrate the depth of 
their commitment to establishing a stable democratic society.
    Along with the United States, Albania is a member nation of the 
United Nations, NATO, Euro-Atlantic Partnership Council, Organization 
for Security and Cooperation in Europe, International Monetary Fund, 
World Bank, and World Trade Organization. Just last year, then 
Secretary of State, Hillary Clinton visited Albania and recognized that 
the nation was on the path toward entrance to the European Union where 
``you rightly belong.''
    I must say that Albania's progression from its Soviet roots is 
truly amazing and deserves recognition. Furthermore, I would add that 
this advancement is not only important for Albania, but for the entire 
Balkan region.
    I was very disappointed by the lack of discussion of NATO 
enlargement at the Chicago Summit. Montenegro and Macedonia have made 
incredible advances and should be encouraged to continue to take 
proactive steps. NATO Membership improves regional security as well as 
diplomatic relations and is seen as a step closer towards membership in 
the European Union.
    However, this Administration has failed to promote NATO enlargement 
and done little to reassure our Trans-Atlantic partners. I fear their 
neglect comes at a pivotal time for many aspiring nations, particularly 
in the Balkans, that have taken significant proactive steps to join 
their democratic partners.
    We should promote NATO enlargement and reward our partners in 
Macedonia and Montenegro. By doing so we will encourage the other 
aspirants in Bosnia and Herzegovina, Kosovo and Serbia to follow suit.
    I thank our witnesses for their participation in today's hearing 
and look forward to learning what the Administration is doing to 
further promote progress in Albania and leverage the good example there 
for the entire region.
Prepared Statement of Philip T. Reeker, Deputy Assistant Secretary for 
        European and Eurasian Affairs, U.S. Department of State

    Thank you, Mr. Chairman, for your kind invitation to speak before 
the Helsinki Commission. The Commission has played a significant role 
in fostering stability and democracy throughout the Balkans for more 
than two decades, and I welcome the opportunity to discuss the pace of 
democratic progress in Albania.
    I would like to begin my testimony today with an overview of our 
policy toward Albania, review the pace of Albania's democratic 
progress, and finally identify the key challenges that remain.
    The United States and Albania share a strong, vibrant, and enduring 
relationship. The United States has long supported Albania's 
independence and its democracy. After the First World War, President 
Wilson defended Albania's statehood. After the fall of the harsh 
communist regime in 1991, the United States under President George H.W. 
Bush quickly reestablished relations with Albania. President Clinton 
established an enterprise fund to bring U.S. investment to Albania, 
supported Albania's democratic elections, and worked with Albania and 
our NATO allies to protect Kosovo and to restore stability to the 
region. President George W. Bush became the first sitting American 
president to visit Albania; President Obama welcomed Albania, along 
with Croatia, as our newest members in NATO in 2009. Secretary Clinton 
helped Albania celebrate its 100th anniversary of independence in 
November 2012.
    Internationally, Albania has been a responsible and steadfast 
actor, committing troops and resources in Bosnia and Herzegovina, 
Kosovo, and Iraq. As a NATO member, Albania has supported robustly 
NATO-led operations, most prominently in Afghanistan where over 200 
Albanians serve proudly right now. The United States deeply values 
Albania's many contributions to our mutual goals.
    The United States is partnering with Albania as it works to achieve 
its European Union (EU) aspirations, which is one of our core goals in 
the Western Balkans and toward Albania specifically. This has been the 
clear policy of both Democratic and Republican Administrations for over 
twenty years.
    Since 1991, Albania has made significant progress in its democratic 
development and the United States has partnered with and supported the 
country's efforts to shore up its democratic institutions, improve rule 
of law, increase living standards for the Albanian people, and to 
maintain friendly and mutually productive relations with its neighbors. 
The United States has also supported efforts to develop trade and 
investment opportunities, and we have cooperated on regional law 
enforcement, economic, and environmental issues.Albania's NATO 
membership is enormously important for consolidating peace and security 
in the country and in the broader region, but in the twenty-first 
century and beyond, economic statecraft is of increasing importance. 
The prospect of integration with the EU provides Albania with strong 
incentives for continued democratic, economic, and social reform, and 
it represents the best prospect for Albania's long-term economic and 
democratic stability. Albania, like other countries aspiring to join 
the EU, knows that EU integration is its best chance to secure 
prosperity for its people.
    As Albania looks to its European future, therefore, we and our 
European partners are hopeful that Albania will take the necessary 
steps to solidify its democratic credentials and give it the best 
opportunity to gain EU candidate status soon. Then-Secretary Clinton 
reiterated this in her historic address to the Albanian parliament last 
Fall: ``Albania and the Albanian people deserve a place in the European 
family of nations. That is not only good for you, it will make this 
continent more peaceful and secure.''
    Today, Albania's political leaders (from all parties) and indeed 
its people have some hard decisions to make about their future: Despite 
some progress on the EU reform agenda, the European Commission did not 
recommend candidate status in 2012. The Commission's progress report 
noted that while Albania had made great strides towards fulfilling the 
Copenhagen political criteria for membership, Albania needed further to 
intensify efforts to reform the judiciary to strengthen its 
independence, efficiency and accountability. It also noted that Albania 
needed to demonstrate a track record of reforms in its fight against 
organized crime and corruption and in its protection of the rights of 
minority communities. Further, the report highlighted the need for 
Albania's parliamentarians to pass remaining reform legislation in the 
areas of public administration, judicial reform, and parliamentary 
rules and procedures.
    Finally, elections remain an area of concern in Albania's 
democratic progress. The Commission report stated that the successful 
conduct of parliamentary elections in 2013, to be held on June 23, will 
be a crucial test of the country's democratic institutions and 
Albania's readiness for EU candidacy status. We share the Commission's 
concerns.
    The 2009 OSCE/ODIHR and Parliamentary Assembly election observation 
mission noted that while the election met most OSCE commitments, it did 
not attain the highest standards for democratic elections. The mission 
cited procedural violations, administrative problems with the vote 
count, biased media coverage, and a highly toxic political environment. 
The conduct of the May 2011 nationwide elections for mayors and city 
councils fared mildly better according to OSCE/ODIHR's observation 
mission final report, but the highly polarized political environment 
was cited as problematic as was the Central Election Commission's (CEC) 
decision to intervene in Tirana's mayoral contest. This decision 
undermined the independence of the institution and undermined 
confidence in the election results.
    As we look toward the upcoming parliamentary elections, the United 
States has been clear that to meet international standards, the 
independence of Albania's institutions must be respected; the political 
discourse must remain constructive and civil; and the Albanian people 
must have confidence in both the process and the results. American 
personnel will join our colleagues from ODIHR and work with their 
Parliamentary Assembly counterparts to ensure that the international 
community watches the conduct of the elections very carefully. We also 
understand the OSCE Parliamentary Assembly will also deploy a mission.
    The United States has worked to engage with civil society in 
Albania. Through our voter outreach and education programs, we are 
encouraging open discussions of important issues that matter to 
Albanian citizens. We are supporting active participation in the 
electoral process, and observation and reporting on the electoral 
process itself. Yet, due in part to lingering effects of the harsh 
communist regime, civic participation remains the weakest aspect in the 
electoral process. Parties must more seriously engage civil society and 
reflect their recommendations into their party platforms. In the United 
States, politicians pay attention to public opinion because citizens 
make their opinions known through their votes. The United States is 
particularly concerned with the independence of the Central Election 
Commission (CEC). The CEC has the primary responsibility to administer 
elections in a fair and impartial fashion, in accordance with Albania's 
electoral code. To do so, the CEC must be free from interference by any 
individual, any political party, any institution, including the 
Parliament. With respect to the composition of the CEC, the members of 
the CEC--who were selected and appointed on the basis of inter-party 
consensus and in accordance with the Electoral Code--should be 
apolitical. Once appointed, CEC members have pledged, and are 
obligated, to impartially discharge their duties to realize free, fair 
and democratic elections in Albania.
    The United States has stressed the need for all parties to 
strengthen lost trust in the main institution responsible for the 
conduct of elections in Albania. This includes adhering to a timeline 
established by the electoral code and conducting elections on June 23, 
just over 45 days from now. To do this, Albania's political party 
leaders must work together, compromise, and find a solution that allows 
the CEC to carry out its mandate to administer elections. Leaders of 
all major political parties have expressed their desire for elections 
to take place on June 23. However, the CEC does not currently have 
enough members to administer elections effectively. We would like to 
see the CEC as fully constituted as possible, and urge Albania's 
leaders not to waste time.
    The United States together with our European partners have stressed 
that democracy is not just who wins and who loses a single election. 
The democratic process matters too. It matters how the political 
parties run their campaigns; how the CEC interprets Albania's electoral 
code, conducts the elections, and manages disputes; how the votes are 
tabulated; how disputes are resolved; and, how the public and the 
political parties respond to the final tally. The conduct of these 
elections will be an important indicator of Albania's democratic 
maturity and it will send a clear signal whether Albania is ready for 
European Union candidacy status. It will also have an impact on our 
bilateral relationship with Albania.
    In spite of our concerns, the United States remains committed to 
Albania's future. Beyond elections, we will remain engaged on the long-
term goals I cited earlier, to help Albania build and refine democratic 
institutions, respect the rule of law, fight crime and corruption, and 
develop a market economy to bring prosperity to the Albanian people.
    Thank you for again for granting me the opportunity to speak before 
the Helsinki Committee. I look forward to your questions.
    Prepared Statement of Elez Biberaj, Eurasia Division Director, 
                            Voice of America

    Mr. Chairman and Members of the U.S. Helsinki Commission! Thank you 
very much for the invitation to testify before your Commission. It is 
an honor for me to appear before you and to offer my personal views on 
Albania's political prospects and democratic challenges.
    The June 2013 parliamentary elections will mark a milestone in 
Albania's political development. They will be a test of the country's 
democratic maturity and of its bid to join the European Union. How the 
Albanians conduct these elections will be important not only for the 
country's democratic progress and future direction but also for 
regional political and economic stability.
    Albania's record of contested elections and post-election disputes 
have set the tiny Balkan country apart from most other young, East 
European democracies, and tarnished the remarkable progress that 
Albania has made over the last two decades. Once again, the continuing 
confrontational nature of Albanian politics and some developments 
during the pre-election period, particularly the dispute over the 
composition ofthe Central Electoral Commission (CEC), have raised 
concerns regarding Albania's ability to hold free and fair elections in 
accordance with international standards.
    The upcoming elections offer both challenges and opportunities for 
Albania. The inability to hold smooth elections is politically risky 
given Albania's polarization and domestic political context, 
characterized as it is with a dysfunctional relationship between the 
country's two main political actors, that have alternated political 
power since the demise of Communism--the ruling Democratic Party and 
the opposition Socialist Party. A negative assessment will hamper 
Albania's political stability, signal deterioration in democratic 
practices, and complicate Tirana's relationship with the United States 
and the European Union.
    Albania has the capacity to hold fully credible elections as is 
expected from a NATO member and an aspiring member of the European 
Union. Prime Minister Sali Berisha and opposition leader Edi Rama have 
committed themselves to do their utmost to ensure smooth elections. The 
United States and the European Union have strongly urged both sides to 
abide by democratic rules.
    Albania has made remarkable progress in terms of its economic and 
political development and efforts to join Euro-Atlantic institutions. 
Once the most reclusive and isolated state in Europe, Albania has 
become a responsible member of NATO. It has also emerged as a strong 
proponent of regional cooperation and reconciliation, and has developed 
a strategic partnership with the United States. Albania seems to have 
weathered the global economic crisis relatively well, although economic 
growth rates have declined. Real GDP growth in 2012 was 1.6 percent, 
down from 3.0 percent in 2011 and 3.5 percent in 2010. Prime Minister 
Berisha's government has made significant efforts in improving 
governance, reducing poverty and unemployment, improving the country's 
business climate, and launching a huge public infrastructure program.
    But while prosperity has expanded, Albania remains stricken with 
poverty and high unemployment. The economic crisis in Greece and Italy, 
Albania's most important economic partners, has had a significant 
impact, leading to a drop in capital and remittance inflows. Although 
the government has taken measures to reduce the costs of doing business 
in Albania, attracting foreign investment has been a challenge because 
of investors' skepticism, perceived corruption, and ineffective 
bureaucracy.
    The Albanian political landscape is fundamentally different today 
than it was twenty years ago. Yet, Albanian politics remain deadlocked 
and deeply dysfunctional. Some of the difficulties that Albania has 
encountered on its road to a consolidated democracy can be ascribed to 
the country's lack of a democratic culture, the Communist legacy, and 
economic underdevelopment. However, the current high level of 
politicization and fragmentation is the direct result of the two major 
parties refusing to engage in the give-and-take that is normally 
associated with a democratic order. Their overriding objective has been 
to gain and keep power. To this end, they have often engaged in 
questionable democratic practices.
    The failure to embrace the rule of law, rampant corruption, and 
political stagnation has left the country bereft of durable, democratic 
and civic institutions. Public goods have largely been distributed on a 
preferential basis. Political elites have amassed huge personal wealth, 
while many ordinary Albanians lack access to basic goods and services. 
Basic institutions of governance and civil society groups are weak and 
under constant political pressure. Transfer of power from one political 
party to another has invariably been associated with efforts to subvert 
what in theory should be non-partisan functioning institutions, without 
much respect for fundamental democratic principles.
    Power holders have also not shied away from institutional 
displacement and from attempts to rewrite the rules from one election 
to another. Electoral systems and electoral laws have undergone 
significant changes almost during every election cycle since the first 
multi-party elections in 1991. The 2009 election code, which was 
revised in 2012, changed the electoral system from mixed to a regional 
proportional system. It established a 3 percent threshold for political 
parties and a 5 percent threshold for pre-election coalitions.
    In most cases, these changes were viewed as positive and a step in 
the right direction; after all, they were the result of an agreement 
between the country's main political forces and addressed 
recommendations by international organizations, particularly the OSCE/
ODHIR. The CEC, which has the responsibility to conduct the elections, 
has been subject to constant and intense political interference. This 
has prevented it from developing into an empowered and truly non-
partisan, administrative body. According to a formula agreed to in 
2012, the ruling coalition proposes four of the CEC's seven members, 
and the opposition the other three. Following the decision of the 
junior partner, the Socialist Movement for Integration (SMI), to leave 
the government in early April 2013, Democratic Party deputies, with the 
support of three Socialist deputies, voted to replace the member of the 
CEC that had been proposed by the SMI. This was followed by the 
resignation of the three members nominated by the opposition, rendering 
the CEC incapable of effectively administering the elections. Thus far 
the two sides have shown lack of political will to compromise and 
reconstitute the CEC. As this dispute demonstrates, the lack of a 
stable electoral infrastructure has undermined confidence in the 
election process and the administration of the elections.
    Since the 2009 elections, which the Democratic Party won by a 
narrow vote, Albania has experienced a serious crisis of 
institutionalization and relations between the government and the 
opposition have been marked by constant tensions. The OSCE/ODIHR report 
said the elections met most OSCE commitments, but added that they ``did 
not fully realize Albania's potential to adhere to the highest 
standards for democratic elections.'' The Socialists contested the 
results, boycotted the parliament, and resorted to threats, ultimatums, 
and disruptive actions in pursuit of their demands. They shunned 
government calls for cooperation and stymied efforts to pass important 
legislation. The Democrats maintained an uncompromising attitude and 
refused to take any meaningful measures to reach out to the opposition.
    Berisha's Democratic Party formed a coalition with Ilir Meta's 
Socialist Movement for Integration and launched an ambitious agenda of 
promoting economic development, reducing poverty, developing the 
infrastructure, creating jobs, and combatting corruption. Meta, a 
former senior Socialist Party leader who had served as prime minister, 
had split with the Socialists and formed the SMI in 2004. The 
improbable coalition between the two rivals-turned-allies worked 
relatively well. However, Meta's trial on corruption charges--based on 
a video, released by his former deputy Dritan Prifti, which purported 
to show Meta discussing bribe taking--eroded the coalition's 
popularity. His case became a source of acute embarrassment and cast an 
unflattering light not only on Meta and his party but also on Berisha's 
government. The Socialists made Meta the focus of their corruption 
criticism, and the violence that erupted in January 2011, in which four 
opposition supporters were killed in clashes with police forces, was 
sparked by popular anger at Meta. The Socialists vehemently criticized 
Meta's acquittal in early 2012, insisting that it send the message that 
the courts were corrupt and top politicians immune from prosecution.
    The dispute over the elections led to a long political impasse, 
diverted attention from pressing economic and social challenges, 
stalled progress on key reforms, and tarnished Albania's image and 
democratic credentials. While there is a wide consensus on the 
importance and potential benefits of Albania's integration into the 
European Union, Albanian leaders permitted short-term political 
considerations to trump the country's EU integration. In December 2012, 
the European Commission refused, for the third year in a row, to grant 
Albania candidate status.
    Albania has received wide praise for its constructive regional 
role. The foreign policies of the two major parties have not diverged 
significantly. However, Kosova's declaration of independence in 2008 
has led to an increased expression of pan-Albanian sentiments 
throughout the Balkans. The celebration of Albania's 100th anniversary 
of independence in November 2012 was associated with a sudden and 
surprising increase in nationalistic rhetoric. Berisha and other top 
Albanian leaders invoked the historical Albanian narrative, and raised 
the specter of the unification of all Albanians into one state. While 
the nationalistic rhetoric was seen by many as an attempt by the prime 
minister to neutralize the newly formed Red and Black Alliance, which 
advocates the unification of Albania and Kosova, Berisha's comments 
triggered a harsh international response. In thewake of international 
criticism that the nationalistic rhetoric threatened U.S. and EU 
security objectives of regional cooperation promotion, Berisha and 
other senior officials tempered their nationalist rhetoric.
    Kosova's independence, Albania's membership in NATO and the 
increased empowerment of Albanians in Macedonia, Montenegro, and 
southern Serbia have given Albanians throughout the region a new sense 
of confidence and unprecedented security. But despite the revival of 
Albanian nationalism and patriotism, the idea of Albanian national 
unification has not become a dominant theme in Albania's public 
discourse nor is it a salient issue in these elections. Mainstream 
Albanian leaders in Tirana and Prishtina have developed a new narrative 
that conveys the opportunities of EU integration and emphasizes the 
benefits of regional cooperation.
    The development of party politics in Albania is in many ways 
similar to that in other emerging democracies. Political parties are 
dominated by their leaders, who enjoy unchallenged authority to select 
candidates for elections. The established elite remains firmly 
entrenched and politics highly informal and personal. In general, 
political parties are not well defined, and they are composed of 
fractious coalitions that converge on some core issues but differ on 
others. There are also deep divisions between and among political 
parties. With the passage of time, it has become difficult to 
distinguish between party platforms since they tend to shun ideology in 
favor of pragmatism and are characterized by a lack of specifics. 
Despite some variation, most pretend to address the same issues: 
unemployment, combating corruption, improving services, attracting 
foreign investments, and implementing institutional reforms. The 
ideological gap between the right and the left may not have 
disappeared, but it has definitely narrowed significantly. Decisions on 
coalitions are driven more by crude power considerations than by 
ideology or political programs. The best example of shifting political 
alliances and the coalescence of disparate political forces lacking a 
deep political alignment was the Democratic Party's coalition in 2009 
with the SMI.
    While Albania has a very vibrant and free media, most media outlets 
have aligned themselves with either the Democrats or the Socialists. 
Both sides have used the media to buttress popular perception of their 
own leadership, while questioning the ability of their foe to 
effectively lead the country. Instead of focusing on providing accurate 
and balanced reporting, most media have made a mockery of journalistic 
objectivity. The various political forces have made increased use of 
social media to publicize their political programs and engage potential 
voters. Both Berisha and Rama are active social media users and have a 
significant following. Berisha regularly posts messages on Facebook, 
while Rama is an avid and engaging user of Twitter. They have shied 
away from a debate, relying on face to face interactions with voters, 
town hall meetings, and news conferences. Both have engaged in a 
campaign aimed at delegitimizing each other.
    Despite the controversy surrounding the composition of the CEC, the 
election campaign thus far has been conducted in a much calmer and 
dynamic environment than in past elections. While there are dozens of 
political parties, the Democrats and the Socialists continue to 
dominate Albanian politics. Other, smaller parties have limited popular 
support, and most of them are led by politicians who split off from the 
Democratic or Socialist party over disagreements with their top 
leaderships. With the exception of two new forces that are contesting 
the elections on their own--former President Bamir Topi's New 
Democratic Spirit and the Red and Black Alliance--other parties have 
coalesced with the two major parties' coalitions. The Democratic Party-
led Alliance for Employment, Wellbeing, and Integration, will have some 
25 parties in its coalition, including the Republican Party, the 
Movement for National Development, and the Party for Justice 
Integration and Unity. In addition to the SMI, the Socialist-led 
Alliance for a European Albania groups together more than 35 parties, 
including the Social Democratic Party, the Union for Human Rights, and 
other parties spanning the country's political spectrum.
    The Democrats have been in power since 2005 and, under their 
leadership, Albania has made significant progress on many fronts. But 
after eight years in power, the ruling party appears vulnerable and 
concerned about an erosion of its popularity. Some blame the government 
for the post-2009 election gridlock and slow progress toward EU 
integration. In addition, growing economic hardships, inability to 
decisively address the corruption issue, and increased social 
discontent make the Democrats susceptible to a public backlash. Berisha 
hopes to meet the challenge by a resurgent Socialist opposition by 
touting his government's economic and social record, and by casting 
Rama as the main obstacle to Albania's integration.
    The Socialists view the 2013 elections as their best chance of 
returning to power and hope to benefit from a possible anti-incumbent 
backlash. The Socialists have made very ambitious election pledges, 
focusing their campaign on accusations of poor governance, 
mismanagement, corruption, and the Democratic stronghold on 
institutional power. These elections are also a serious test of Edi 
Rama's leadership. Rama had pursued a self-defeating boycott strategy, 
engaging in an uncompromising battle with the Democrats. Many 
Socialists blamed Rama personally for the loss of the 2009 election and 
the 2011 mayoral elections in Tirana. He had made a serious 
miscalculation by declining Meta's calls to join forces in 2009 against 
the Democrats. The two leftist parties combined had won more votes than 
the Democratic Party. Most analysts believe that political bickering 
among the Socialists and Rama's failure to form a pre-election 
coalition with Meta secured Berisha's second term. Evidently 
recognizing that his confrontational approach had backfired and under 
increased pressure from party rank and file, Rama changed his strategy 
following his loss of the mayoral elections in 2011. He focused on 
counteracting the perception as a polarizing figure and improving his 
relations with the international community. He made concerted efforts 
to mend fences with internal opponents, and reached out to his former 
arch rival, Ilir Meta. By creating a coalition with Meta, Rama hopes to 
increase his chances of unseating the Democrats.
    Meta's coalition with the Democrats was a marriage of convenience. 
Following his forced resignation as deputy prime minister and foreign 
minister as a result of corruption charges, his position was severely 
weakened. But following his acquittal, he gradually muted his criticism 
of Rama. While he had implied that he was open to an alliance with 
either the Democrats or the Socialists, he made it clear he would seek 
to exact the highest price. He views himself as the king-maker and if 
the Democrats win the largest number of votes, he could renew his 
coalition with Berisha.
    In the last two years, two new forces have appeared on Albania's 
political scene: the Red and Black Alliance and the New Democratic 
Spirit. Both are contesting the election on their own. The Alliance was 
formed by Kreshnik Spahiu, who had served as deputy Chairman of the 
Council of Justice under President Topi. The Alliance's platform 
incorporates a strong dose of nationalist sloganeering and pledges to 
fight corruption, but lacks substance on other issues. Its 
nationalistic rhetoric and calls for the unification of Albania and 
Kosova have resonated with many Albanians disenchanted with established 
political parties. But Spahiu's credibility as a corruption fighter has 
been undermined by allegations that he had engaged in corruptive 
practices as deputy chairman of the Council of Justice. Many blame him 
and Topi for the highly politicized and corrupt justice system. The 
Alliance has been organized more as a street movement than as a real 
political party, mobilizing its supporters through protests and 
actions. Most media, particularly those close to the Socialists, were 
openly supportive of the Alliance but recently they have adopted a more 
skeptical stance. Initially, the Alliance displayed an ability to stage 
massive protests. However, in recent months much-hyped rallies failed 
to draw a significant turnout, a sign of its declining influence. The 
Alliance expressed willingness to join the Socialist-led coalition, but 
Rama rejected what the Socialists termed as the Alliance's excessive 
demands. The Alliance suffered a major blow in late April, when leading 
officials resigned en masse because of a lack of confidence in Spahiu's 
leadership.
    Following the end of his tenure as president in July 2012, Bamir 
Topi, who had a falling out with Berisha, formed his own party, the New 
Democratic Spirit. The former president pledged to introduce a new 
``spirit'' in Albanian politics, free from corruption and political 
nepotism.Splinter parties in Albania, however, have not had much 
success and the New Democratic Spirit has not been able to expand its 
core leadership beyond its composition of disgruntled Democratic Party 
officials. While pledges for an uncompromising fight against corruption 
resonate widely, Topi has thus far been unable to mobilize a serious 
political following or recruit well-known and electable politicians. 
Nevertheless, the party leaders hope to attract right-wing voters, 
former political prisoners, and property owners who have yet to be 
compensated for assets confiscated by the Communist regime.
    Albania is a country at a critical crossroads, torn between a 
potentially destabilizing political confrontation and the aspiration 
for national prosperity, democratic consolidation, and European 
integration. The country cannot afford another contested election that 
would likely trigger a destabilizing conflict and adversely impact 
Tirana's relations with Washington and Brussels. The elections offer 
Albanian political actors an opportunity to move beyond the usual zero-
sum game approach to elections, demonstrate their commitment to 
democratic consolidation, and re-institutionalize democratic politics. 
The end of the political deadlock and brinkmanship, which have 
characterized the last four years, would unleash the great potential 
that the Albanians have, and pave the way for Albania's membership in 
the European Union.
    Elections alone, however, even if they are held in full accordance 
with the highest international standards, are not a salve for Albania's 
democratization. The new government that will emerge from these 
elections will be faced with formidable challenges and can ill afford 
to be distracted by prolonged post-election disputes. Although 
conditions have not been conducive for the emergence of a new 
generation of leaders, Albania has a dynamic, highly educated, young 
generation that tends to think in a Western, democratic context and is 
poised to move into influential positions. Ordinary Albanians have 
shown a deep commitment to EU integration and view democracy as their 
preferred form of government. Albania has the capacity to reinvigorate 
democratic reforms, and restore the public's confidence in the 
political process. But to re-energize democracy and advance their 
nation's democratic aspirations, Albanian political elites must do much 
more to establish the rule of law, empower non-partisan institutions, 
reduce corruption, and dispel the widespread perception that 
politicians are enriching themselves at the expense of average 
citizens.
    The role of the international community will remain critical. The 
United States and the European Union have been forthright in their 
support of democracy as well as in their criticism of democratic 
failings. While domestic political polarization and gridlock have led 
to ``Albania fatigue,'' it is important that Washington and Brussels 
continue to engage Albania, using their significant leverage to foster 
democratic progress as well as to address democratic transgressions. A 
stable, democratic, and prosperous Albania, firmly anchored in the 
Euro-Atlantic community, is in the national interest of the United 
States.
    Thank you very much for the opportunity to appear before you today.
          Prepared Testimony of Besa Shahini, Senior Analyst, 
                     European Stability Initiative

    I am a senior analyst with the European Stability Initiative (ESI). 
We are a think tank based in Berlin, Brussels and Istanbul. We have 
been producing in-depth analysis on the political, social and economic 
development of the Western Balkans, Turkey and South Caucasus since 
1999. We are an active contributor to debates on European integration, 
closely following the progress of South Eastern European countries 
towards EU membership.
    Through this submission, we draw attention to recent violations of 
democratic principles in Albania, as it prepares for elections on 23 
June 2013. There was always a risk that these elections will fall short 
of international standards, precipitating a major political crisis. The 
result would be the loss of any credible prospect of progress towards 
European integration in the foreseeable future and a spiral of 
political, social and economic decline in Albania. To counter this 
risk, we argue that the international community must take a strong and 
uncompromising stand on the democratic principles that must be 
observed.
    Albania applied for EU membership exactly four years ago. The 
criteria for starting negotiations on EU membership were set down by 
the European Council in Copenhagen in 1993. They include the 
requirements that a country must have achieved ``stability of 
institutions guaranteeing democracy, the rule of law, human rights and 
respect for and protection of minorities.''
    There are sound, practical reasons why ``stability of 
institutions'' is a precondition for negotiations. To qualify for EU 
membership, a huge number of legislative and institutional changes are 
required. Without strong parliamentary and executive institutions and a 
broad-ranging political consensus, candidate countries are unlikely to 
implement such far-reaching reforms.
    So far, Albania has not been able to generate this kind of 
political consensus. Past elections have produced deep polarization and 
recurrent political instability. The 2009 parliamentary election 
results were heavily contested, leading to a two-year opposition 
boycott of parliament. Many important reforms requiring more than a 
simple majority could not be adopted by the parliament. In place of the 
``stable institutions'' required for EU accession, Albania faced 
political stasis, popular demonstrations and violent clashes.
    Not surprisingly, Albania has not received a positive reply to its 
application for EU membership. In 2010, the EU Commission wrote that it 
``considers that negotiations for accession to the European Union 
should be opened with Albania once the country has achieved the 
necessary degree of compliance with the membership criteria and in 
particular the Copenhagen political criteria requiring the stability of 
institutions guaranteeing notably democracy and rule of law'' (European 
Commission, Albania Opinion, 2010).
    Albania desperately needs a better outcome from its 2013 elections. 
The geo-political context in the Western Balkans is changing. The 
countries of the region are increasingly divided into two groups: the 
frontrunners making progress on EU accession, including Croatia, 
Montenegro and, in all likelihood, Serbia; and the laggards, including 
Albania, Kosovo, Bosnia and Herzegovina and (so long as the name issue 
remains unresolved) Macedonia. For the latter group, even the starting 
line of opening negotiations on accession looks increasingly distant.
    This regional division risks becoming self-reinforcing: against the 
backdrop of a deepening social and economic crisis, the poorer parts of 
the Balkans are losing faith in the EU integration process just as the 
EU risks giving up on them. Without the incentive of a clear membership 
prospect to help forge political consensus, they are unable to 
undertake the necessary reforms, slipping ever further into social and 
economic dislocation. The result is likely to be a new Balkan ghetto, 
encompassing most of the region's Albanian population.
    In its 2010 Opinion on Albania's EU application, the European 
Commission listed twelve reforms that must be undertaken as a priority. 
Two of these pertain to elections. Albania must modify its electoral 
legislation in accordance with OSCE recommendations (the OSCE's Office 
for Democratic Institutions and Human Rights (ODIHR) undertakes 
election observation across the region), and it must ensure that its 
elections are conducted ``in line with European and international 
standards''.
    The first condition has been largely met. After a political 
agreement in November 2011, the opposition returned to the parliament 
to start working on electoral reform and other EU priorities. A revised 
Electoral Code passed the parliament in July 2012, with broad support, 
addressing most of the OSCE-ODIHR recommendations (OSCE/ODIHR, Needs 
Assessment Mission, 2013).
    We have growing concerns, however, as to whether the second 
criteria will be met. Preparations for the forthcoming elections are 
not going well. On 15 April 2013, the Albanian parliament voted to 
replace one of the members of the Central Election Commission (CEC), 
the body that manages elections. The decision was taken in violation of 
the new electoral law. It threw into question the independence and 
legitimacy of this key institution, before a single vote had been cast. 
The political message was clear: Albania's politicians are willing to 
ride roughshod over the rules in their own political interest.
    The CEC is a permanent, 7-member body. Its members are voted on by 
parliament, and are appointed for 6 years, with the possibility of re-
election. The current membership was chosen after the electoral reforms 
of 2012. It consists of three candidates nominated from the governing 
coalition and three nominated by the opposition, with an independent 
Chair.
    While the nominations are by the political parties, each member is 
supposed to act a-politically--as, for example, in appointments to the 
U.S. Supreme Court. Once in place, the members are guardians of the 
electoral process and cannot be removed for political reasons. They can 
be impeached by parliament only if they are found guilty of a crime, 
refuse to exercise their mandates or engage in inappropriate political 
activity (Albania Election Code, 2012, Article 18).
    A strong and independent CEC is central to any prospect for a fair 
election. As its Chair, Ms. Lefterie Lleshi, pointed out during an 
event organized by the US Embassy in Tirana on 28 March 2013 announcing 
U.S. financial support for the elections, there is already political 
pressure from all sides:
    ``[politicians] recognize the CEC as accurate, professional, 
transparent and independent only on those occasions when it makes 
decisions in their interests. In these few months of work with the CEC, 
I am yet to see politicians with the courage to refrain from putting 
political pressure on the CEC's decisions, and even less to appreciate 
the individual and collegial vote in the CEC'' (ESI Translation from 
original).
    Early in April 2013, there was a shift in political alliances. The 
Socialist Movement for Integration (SMI) of Ilir Meta--formerly part of 
the governing coalition with Prime Minister Sali Berisha's Democratic 
Party (DP)--announced that it was forming a pre-election coalition with 
the Socialist Party (SP) of Edi Rama. Following this announcement, the 
DP parliamentary group presented a motion to parliament to remove one 
of the CEC members, Ilirjan Muho. Mr. Muho had been an SMI nominee in 
2012. The DP parliamentary group first argued in its deposition in 
parliament that this step was necessary to bring back ``political 
balance'':
    ``the [Electoral] Code is built upon a basic principle: that of the 
political balancing of the parliamentary majority and opposition. 
Political balance is the core principle of CEC composition . . . This 
principle is the backbone which holds up the entire election 
administration.''
    There is, however, no basis in the Electoral Code to remove a CEC 
member against his will for any reason other than those given above. 
Prior to the parliament's decision, US Ambassador in Tirana, Mr. 
Alexander Arvizu, noted that:
    ``The CEC was properly and legally constituted and mandated. It is 
the institution responsible for the conduct of the elections, and as 
such, it is important for the independence of this institution to be 
respected. The CEC should be free from interference by any individual, 
by any institution, and that includes the Parliament of Albania.''
    The parliamentary debate on the legality of removing the CEC member 
lasted over 12 hours. Over the course of the debate, the DP changed its 
legal argument. It asserted that, in a previous job as public 
prosecutor in 2003, Mr. Muho had been suspended from his post. It 
pointed out that the Electoral Code stipulates that, in order to be 
appointed to the CEC, individuals must not have been dismissed from any 
public office due to a violation of the law (Albania Election Code, 
2012, Article 12). The DP insisted that Mr. Muho had broken Article 12 
of the Electoral Code by failing to disclose his suspension before 
being voted into the CEC. The DP majority in the parliament then 
proceeded to annul the original decision to approve his nomination. The 
vote went along party/coalition lines. A new CEC member from the 
Republican Party--a coalition member with the Democratic Party--was 
appointed in his place.
    The SMI protested against this action in the strongest terms. In a 
letter addressed to foreign diplomatic missions in Tirana, it pointed 
out that Mr. Muho had been relieved of his post as public prosecutor 
improperly. Far from committing any crime, he had arranged for the 
transfer of a convicted prisoner to a mental institution, pursuant to 
an order of the responsible court. This order had subsequently been 
affirmed by the High Court of Albania. Mr. Muho explained that 
according to the Law on the Organization and Functioning of the 
Prosecutors, disciplinary actions--such as the one against him--expire 
after 5 years.
    The removal of Mr. Muho led three other CEC members to resign in 
protest. As a result, the CEC currently has only four of its seven 
members. This is not a dispute over a legal technicality. The 
parliamentary majority had openly stated its political motivation to 
remove the CEC member. This sets a precedent for the removal of CEC 
members in the future by simple parliamentary majority.
    With only four members, the CEC cannot fulfill one key aspect of 
its mandate in the coming elections: it cannot act as an electoral 
appeals body. Under the Electoral Code, five votes are required to 
decide on appeals against the results in particular electorates or to 
declare the election invalid, in whole or in part (Albania Election 
Code, 2012, Article 25).
    Recent elections in Albania have produced extremely tight results. 
In 2009, the Democratic Party and its allies defeated the Socialist 
Party by just 24,000 votes. In the mayoral elections in Tirana in 2011, 
Social Party candidate Edi Rama first appeared to win the election by a 
margin of 10 votes over Lulzim Basha, the Democratic Party nominee, out 
of a total of over 250,000 votes. The CEC then adjusted to include 
miscast ballots, putting Mr. Basha ahead of Mr. Rama by 81 votes. 
Though a controversial decision, it was taken by the body with the 
mandate to resolve such disputes.
    Various political commentators are suggesting that, based on the 
current coalitions, there are at least four districts where the winning 
margin could be as close as 500 to 1,000 votes. This means that the 
election could once again be decided by decision on disputed votes or 
counts. It is therefore crucial that the bodies administering these 
elections act according to the rules.
    Predicting election results is a tricky business, in Albania as in 
most democracies. But we are confident of one prediction regarding the 
forthcoming Albanian election. In the absence of a credible, impartial 
and legitimate CEC, this election is going to end up in a bitter 
dispute. Whoever will be the eventual victor, the loser is going to be 
Albanian democracy and its prospects for European integration.
    Outsiders cannot substitute for the good will of national leaders. 
They can however help mitigate conflicts, both before and after 
election-day, by standing up for clear principles and communicating 
clearly the expectations of the international community.
    The key message from all international observers, and in particular 
from the European Union, must be that all Albanian institutions must 
rigorously respect the laws they themselves have adapted. There are 
certain red lines that must not be crossed. Albanian leaders must know 
that the world is watching.
    Spelling out these red lines in advance makes it less likely that 
they will be transgressed:
    (a) Members of the election administration cannot be removed for 
reasons unspecified in the Election Code.
    (b) Counting and adjudication of complaints and appeals must be 
done through strict observation of Election Code procedures.
    By taking a clear position now, and insisting on a reversal of the 
decision to dismiss a member of the CEC who had been appointed for six 
years, the US and the European Union increase the likelihood that such 
red lines will not be crossed in the coming weeks and months. This 
raises the likelihood of these elections meeting ``international and 
European standards.''
    These elections will not only test Albania's democracy but also its 
rule of law. They will show whether Albanian institutions can respect 
the rule of law enough to ensure the prevalence of democratic 
principles in the country.
    Even one month ago ESI had hoped that timely messages from the 
international community would help make these 2013 elections different 
from those in 2009. Today we note that there is less reason for such 
optimism.
    Despite this it remains a matter of vital international interest 
that these elections meet international standards and that a credible 
and legitimate post-election government emerges in Albania. It is a 
matter of vital interest to Albanians, but also to the rest of Europe 
and to the US as one of Albania's close allies.
 Prepared Statement of Gilbert Galanxhi, Ambassador of Albania to the 
                        United States of America

    Please allow me to extend my sincere thanks to the US Commission on 
Security and Cooperation in Europe, known as the US Helsinki 
Commission, for providing me with this opportunity to share with you 
and this very distinguished audience some thoughts on ``the Pace of 
Progress of Albania'', including reflections on some of the 
achievements, developments and concerns that my country, Albania, has 
been experiencing recently.
    I also want to thank all the previous speakers for their very well 
prepared and detailed presentations, which consider today's topic from 
different angles and viewpoints, but, I have to stress, with good 
intentions and the desire to see my country advance faster and better 
on the democratic path that it has definitely chosen.
    Distinguished friends, I sincerely consider myself to be amongst 
very good, principled and loyal friends today. It is an undeniable fact 
that Albania has made tremendous progress in the last two decades in 
every respect. What you and almost all western democracies have 
achieved in more than two hundred and fifty years, we have sought to 
achieve in less than twenty five years. We are conscious that we have 
to, because there is no other agenda, nor any better option for Albania 
than full integration into the European Union. We fully understand that 
this requires us to fully embrace the best standards and norms as 
enshrined in the Helsinki Final Act. Nobody has ever said that this 
will be easy. We are fully aware of that.
    In 1992, we started from scratch. If you considered Yugoslavia to 
be a communist state, I sincerely don't know what adjective could 
properly be applied to Albania. We had to start building roads at the 
same time that we had to start building the state. By this I mean a 
Democratic State, with all its democratic structures and democratic 
institutions. Please, do not forget that ``Rome was not built in one 
day''. So, it would be quite naive and unrealistic to pretend that 
everything went well and is going perfectly well. That is why we are 
here today, trying to recognize the progress that has been achieved, 
while at the same time throwing light to the difficulties that we are 
encountering, and most importantly, trying to find the best solutions 
for moving ahead. It is also important to understand, or better, not to 
forget, that Albania is no longer the self-isolated country it used to 
be just two decades ago. Albania actively and dynamically interacts 
with its neighbors, partners and friendly countries, bilaterally and in 
every international organization to which it belongs, but at the same 
time, it has also been affected by the multi-faceted problems and 
difficulties that the world's economy has been facing during the recent 
years.
    Having said all this, we still have a long way to go in building 
and consolidating our democratic institutions, because this is a 
neverending process, and obviously, we need and appreciate the good 
advice and assistance that comes from our best and principled friend, 
the United States of America.
    It is relatively easy to build a very nice and modern, let's say, 
ministry building, even in difficult financial times; but it is much 
more difficult to fill this building with the right qualified and 
motivated human resources. I believe this is the key to success, 
something that very often is underestimated or not taken into account 
when we analyze dynamic developments and pivotal events in my country. 
I am fully convinced that it is in the interest of every individual, in 
the interest of each political party, as well as in the interest of all 
social groupings to have a consolidated democratic system in Albania 
based on the rule of law. Yet, when it comes to implementing these 
ideals, it becomes so difficult, as everywhere else, I believe, because 
each grouping has its own program, its own interests, its own agenda, 
and what's even more important: its own people or human resources. As I 
mentioned in the very beginning, there has been tremendous progress in 
every field; in economy, trade, investments, public order, education, 
institution building, etc.
    But, are We satisfied with that? Of course not. Are You satisfied 
with that? I believe, not.
    If we take into consideration the four-year period, from the 2009 
elections to those coming on June 23rd, things have moved up and down, 
sometimes very rapidly and sometimes with a normal flow. As is happens 
in every democracy, ``you need two to tango''. And even having two is 
not a guarantee of a good dance, because both need to perform well; 
each one its own part.
    In 2009 elections, Albania ``met most OSCE commitments'', including 
all key commitments (see Statement of OSCE/ODIHR spokesperson), yet, 
the result was not accepted by the losing party, which boycotted the 
Parliament for two successive years. A lot of opportunities were lost, 
especially with crucial reforms needed for speeding up the EU 
integration process. The fact of the matter is that Albania lost for 
three consecutive years the opportunity to achieve the Candidate Status 
for EU membership, because of this lack of participation in the 
Parliamentary life by the main opposition party, which prevented 
approval of important pieces of legislation which required two-thirds 
majority, which were essential for moving ahead the reform process. 
Things gradually improved last year, following the November 2011 
political agreement between the Democratic Party and the Socialist 
Party with regard to the approval of a number of laws that require 
consensus between the ruling majority and the opposition, including 
changes to the Constitution to limit the immunity from prosecution for 
members of parliament, government ministers, and judges. Also vitally 
important was the consensual Electoral Reform, which led to an improved 
Electoral Code, an improved climate of cooperation, as well as 
agreement on a very balanced Central Election Commission and regional 
and local election commissions, which is the core of the elections 
administration and responsible for the whole process.
    I have to stress that since 2009, Albania possesses an electronic 
voters' list, accessible by every individual, and which is constantly 
updated by the Ministry of Interior. It is legally required that the 
final voters' list be published 45 days before the election day; with 
regards to the up-coming elections, it is going to be published on May 
9th, just three days from now. I must stress as well that the only 
valid identification documents are either the biometric passport or the 
electronic chipped ID card, which have unique registry number, very 
high-tech security elements, and make it impossible for an individual 
to appear twice in the voters' list.
    Until a month ago, the electoral process in Albania appeared to be 
unfolding smoothly. As always when a tight result is expected, the 
climate was polarized, but we all know this is unavoidable, and I 
believe America experienced that, too, last year.
    Quite unexpectedly, a month ago, the second biggest party of the 
governing majority, the Socialist Movement for Integration (LSI), after 
co-governing for 4 years, decided to pull out of the government and 
join the opposition. This was a legitimate political right of this 
party, but had enormous practical consequences for governing the 
country.
    From that moment we had to live with this new political reality in 
Albania, which was reflected and will continue to be reflected in all 
levels of central government, of local government, of parliamentary 
bodies as well as in the election structures and institutions. We 
cannot ignore this new reality in offering prescriptions and making 
decisions with respect to very important issues, such as election 
administration.
    Dear friends, As you may have come to know during these recent 
days, there has been a very hot debate regarding the composition of the 
Central Election Commission (CEC), which is the main institution 
responsible for the preparation and conduct of elections in Albania.
    There are two main elements that must be taken into consideration 
in order to understand this problem, but more importantly, to give a 
sound judgment with a long-term positive effect for my country:
    1) Respect for the legal framework that has been in place in 
Albania since 2004; and
    2) Respect for the political consensus in favor of a politically 
balanced Central Election Commission, that was agreed to when the 
current government was in opposition and the current opposition was in 
power. Under this consensus, the governing majority has a 4-3 majority 
in the Commission, but the opposition is protected by the requirement 
of Art. 24 of the Electoral Code that the CEC can only act when ``no 
less than 5 members have voted in favor''.
    The legal question raised for this case was: ``Did the Parliament 
have the authority to remove one member of the Central Election 
Commission who had been elected a few months previously with a six-year 
mandate, or not?''
    The Parliament had all the legal bases to fix what seemed to be 
broken. The Electoral Code requires that the parliament establish the 
CEC in a politically balanced manner (Art. 14) and requires that it 
maintain that balance when vacancies arise (Art. 19). The parliament 
has the mandate to appoint and dismiss the CEC members (Art. 14 and 
18). The Electoral Code stipulates that the six-year term is linked to 
the office and not to a specific member. Accordingly, when a vacancy is 
filled, the new member serves the remaining period of the term. This 
guarantees that six mandates, three of the ruling majority and three of 
the opposition, expire at the same time in order to ensure the balance 
is preserved. All these provisions, designed to preserve the principle 
of political balance throughout the term of mandate of the CEC, 
implicitly authorize the Assembly to intervene to reestablish it, i.e. 
the political balance, when it is affected by changes in parliamentary 
coalitions. This follows not from specific criteria for dismissing a 
member for breach of law during the conduct of the work as provided in 
Art. 18, but it is based on the letter and the spirit of all the 
provisions regulating the formation and functioning of the CEC, as well 
as of all the election administration.
    However, the Parliament acted to remove the representative of the 
Socialist Movement for Integration from the Central Election Commission 
not on the basis of its authority to maintain political balance within 
the CEC, but rather because his appointment had been made in violation 
to the law. Specifically, it was determined that he had given false 
testimony in his confirmation hearing session, hiding the fact that in 
2003 he had been dismissed from duty of Public Prosecutor of Fier 
County by a Presidential Decree, upon the recommendation of the 
Prosecutor General of that time.
    Article 12, point 2, letter ``e'', of the Electoral Code is crystal 
clear on this point: ``Any Albanian citizen with the right of vote may 
be appointed a member of the CEC provided that the candidate fulfills 
the following criteria: . . . has not been dismissed from public 
administration or any other public function due to a violation.''
    I understand the immediate reaction of someone will be:--Why now 
and not before?
    The very simple answer is:--The Parliament reacted as soon as the 
fact became known. I don't believe that a surgeon continues the 
operation with a dull-bladed razor only because he has started with it. 
It's easy to guess the result. I believe this Congress has elected and 
confirmed so many great leaders, but at the same time has impeached 
leaders when new facts have come up in surface.
    Some have asked:--Was the Assembly entitled to make a decision 
directly, or was it supposed to act only upon a decision of the CEC to 
recommend the dismissal? The dismissal of the CEC member was made for 
the reason that his appointment had not been made in accordance with 
the law, and not for breaches of the law by the CEC member in the 
conduct of the duty as Art. 18 requires; therefore the Assembly acted 
directly. This article stipulates the grounds for dismissal of an 
incumbent during the term. But such grounds are related to his exercise 
of duty and not to the criteria for the appointment stipulated in Art. 
12, which were the ground for the release from duty of the LSI member. 
Only the dismissal for reasons found in Art. 18 require a 
recommendation from the CEC, which is made by a qualified vote to 
protect minority members from the abuse of such CEC competence to their 
detriment. However, this is not a precondition. If the Assembly is 
informed of violations of the law of individual members, it can act and 
should act swiftly. For example, Art. 18 stipulates that a member is 
dismissed if he/she has been convicted by a final court decision for 
having committed a crime. In such case, the Assembly has full right to 
dismiss the member without a recommendation from the CEC. A blocking 
minority cannot void an important provision of the law by blocking the 
recommendation.
    From whatever angle you analyze this issue, one thing is quite 
obvious: the Parliament did the right thing, legally and morally, for 
re-establishing the integrity and ensuring the normal functioning of 
the Central Election Commission. I have to stress that the government 
has the responsibility for creating normal conditions and balanced 
mechanisms for having free and fair elections complying with the OSCE 
norms and standards, whereas the political parties have moral and 
political responsibility for playing according to these rules, norms 
and standards. I believe that Albania has all the pre-conditions to 
conduct free and fair elections, provided there is a good political 
will from all sides to do so.
    In May 2003 and October 2004, the two main political parties in 
Albania, the Socialist Party and the Democratic Party, concluded an 
agreement for having a politically balanced Central Election 
Commission: three members from the governing majority party/coalition, 
and three members from the opposition party/coalition. According to the 
agreement, the seventh member, i.e. the chair of the commission, should 
always belong to the governing majority, since the government has the 
administrative responsibility for the preparation of elections. This 
political agreement was reconfirmed last year as well, when both, the 
governing majority and the opposition, agreed to format the new Central 
Election Commission according to the agreement. Based on this political 
agreement for having a politically balanced CEC, as well as on the 
Electoral Code, Article 12 (Composition of the CEC) two members 
belonged to the Democratic Party and one member to the Socialist 
Movement for Integration (governing coalition); two members belonged to 
the Socialist Party and one member to the Human Rights Party 
(opposition coalition); and the seventh member--the chairman, belonged 
to the governing majority; thus fully complying with the political 
agreement as well as with the legal provisions of the Electoral Code.
    But as I have mentioned previously, since a month ago, we have 
quite another reality; we witnessed the move of the Socialist Movement 
for Integration from the governing majority to the opposition, 
misbalancing not only the Central Election Commission, but also all the 
subordinate commissions at the regional and local levels. Consequently, 
we had the opposition becoming `majority' in CEC with 4 members, and 
the governing majority becoming `minority' with 3 members.
    According to the political agreement and the Electoral Code, 50% of 
all the regional election commissions should have a ``4 to 3'' ratio in 
favor of the opposition, and the other 50% a ``4 to 3'' ratio in favor 
of the governing majority, thus achieving a perfect balance as the main 
means of ensuring trust as well as a `fair and square' performance. 
But, had the CEC remained unbalanced in favor of the opposition, the 
consequence would have been a distorted ratio within all the regional 
commissions, i.e. the opposition would control 50% of the regional 
commissions with a 4-3 majority, as well as the other 50% of the 
regional commissions with a 5-2 advantage, which would mean no blocking 
mechanism at all.
    My question is: Would this be politically and legally Right and 
Fair? Are elections a democratic mechanism where the term ``democracy'' 
= ``the will of the majority of people'' is taken seriously to benefit 
the long term prosperity of the people, or are elections simply 
considered ``a gambling game'' where all acrobatic figures are allowed?
    I strongly believe that the Albanian Parliament did the right 
thing, legally, politically, and morally, to bring back the legitimacy 
of a balanced Central Election Commission, as a guarantee for having a 
standardized process, as well as free and fair elections. It is of 
paramount importance that all the Election Commissions be constituted 
according to and in compliance with the existing legal framework, 
explicitly fixed in the Electoral Code provisions.
    Lastly, I want to throw light on a very important aspect, not only 
for Albania, but also for the whole region. Much has been said and 
written about the so-called ``nationalistic rhetoric'' emanating from 
Albanian politics last year. I assure you that the Albanian Government 
has been quite clear and transparent about this issue. In many 
occasions, formal and informal, the Prime Minister of Albania has 
clearly stated that Albania is against any change of borders in 
Balkans. It is an historic fact that Albanians live in many states in 
Balkans, but it is also indisputable that Albania's main goal is full 
EU integration and membership, which fortunately is the main goal of 
all the countries in our region. I take advantage of this opportunity 
to congratulate Serbia and Kosova for their recent agreement to 
normalize the relations, because we believe that Brussels is going to 
be our common capital city and the final destination of the democratic 
journey of the Balkan countries. This is the reason why we so strongly 
supported the Prishtina-Belgrade dialogue, and this is the reason why 
we continuously urge the Albanian political parties in Montenegro and 
Macedonia to actively participate and contribute to the integration 
processes of their countries.
    Dear friends, Last year was a very emotional year for Albanians; we 
celebrated the 100th anniversary of our Independence, and I cannot 
continue without expressing the deep gratitude and appreciation of 
generations of Albanians for President Wilson whose principled 
determination made possible the very existence of the Albanian state. 
With this, I intend to clarify that what was perceived as 
``nationalistic rhetoric'' was nothing else but ``Albanian 
patriotism''. I assure you that no threat will ever emanate from 
Albania against our neighbors. On the contrary, we view the Albanians 
living in our neighboring states, and the minorities living in Albania, 
only as bridges of friendship and understanding.

                                  [all]





                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
